<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY
                  ROBERT B. ADERHOLT, Alabama, Chairman
 JOHN R. CARTER, Texas                DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey  NITA M. LOWEY, New York
 TOM LATHAM, Iowa                     JOHN W. OLVER, Massachusetts
 ANDER CRENSHAW, Florida              
 CHARLES W. DENT, Pennsylvania      

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Ben Nicholson, Jeff Ashford, Kris Mallard,
                   Kathy Kraninger, and Miles Taylor,
                            Staff Assistants
                                ________

                                 PART 2

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 U.S. Customs and Border Protection...............................  163
 U.S. Coast Guard.................................................  277


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations









        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                  ROBERT B. ADERHOLT, Alabama, Chairman
 JOHN R. CARTER, Texas               DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas         LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey NITA M. LOWEY, New York
 TOM LATHAM, Iowa                    JOHN W. OLVER, Massachusetts
 ANDER CRENSHAW, Florida             
 CHARLES W. DENT, Pennsylvania      

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Ben Nicholson, Jeff Ashford, Kris Mallard,
                   Kathy Kraninger, and Miles Taylor,
                            Staff Assistants
                                ________


                                 PART 2



                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 U.S. Customs and Border Protection...............................  163
 U.S. Coast Guard.................................................  277


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 66-893                     WASHINGTON : 2011











                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\       NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\         MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia             PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia              NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                    ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama         JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri            JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                  ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho           DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas         MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida             LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana              SAM FARR, California
 JOHN R. CARTER, Texas               JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana         CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California             STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                  SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio          BARBARA LEE, California
 TOM COLE, Oklahoma                  ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                 MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida          BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania       
 STEVE AUSTRIA, Ohio                 
 CYNTHIA M. LUMMIS, Wyoming          
 TOM GRAVES, Georgia                 
 KEVIN YODER, Kansas                 
 STEVE WOMACK, Arkansas              
 ALAN NUNNELEE, Mississippi          
 ----------
 \1\Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012

                              ----------                             

                                          Wednesday, March 2, 2011.

                    DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JANET NAPOLITANO, SECRETARY, UNITED STATES DEPARTMENT OF HOMELAND 
    SECURITY

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. The hearing is called to order.
    I would like to welcome everyone to our first scheduled 
hearing for the year. It is an honor for me to chair this 
Subcommittee, and also to welcome some new Members to the 
Subcommittee who are still, I think, making their way in. Thank 
you for being here, and welcome to the Subcommittee.
    Today we welcome Secretary Napolitano to what marks her 
third appearance before the Subcommittee. Madam Secretary, we 
thank you for being here, and I look forward to hearing your 
testimony as part of the President's fiscal year 2012 budget 
request for the Department of Homeland Security (DHS).
    Madam Secretary, as you know, the threats facing our 
country have never been as persistent and as diverse as they 
are today. In fact, recently you testified before the Senate 
that in some ways the threat facing us is at its most 
heightened state since the 9/11 attacks. This past year we have 
seen intensified terrorist activity, including new threats to 
aviation and several home-grown plots. Furthermore, the cartel-
fueled violence in Mexico continues to cast a lengthy shadow 
over the Southwest Border and even claimed the life of an ICE 
agent 2 weeks ago. And certainly our thoughts and prayers go 
out to the family of Special Agent Zapata.
    In light of such challenges, the importance of the 
Department's work cannot be overemphasized. This is especially 
true as we approach the tenth anniversary of the 9/11 attacks 
later this year. That is precisely why H.R. 1, the full-year 
continuing resolution passed by the House just a week and a 
half ago, fully funds all frontline operation and essential 
personnel, including Border Patrol agents, ICE agents, Coast 
Guard personnel, intelligence officers, and other key 
employees. In fact, the funds provided in H.R. 1, combined with 
fiscal year 2010 supplemental funds, enable the Department of 
Homeland Security to actually increase the number of Border 
Patrol agents beyond the minimum 20,500 agents to reach the 
target of 21,370 agents by the end of fiscal year 2011.
    As we work to enact a responsible FY 2011 appropriation for 
Department of Homeland Security, we are mindful both of our 
critical national security needs and our government's mounting 
fiscal crisis. Even in the name of security, we can no longer 
afford to simply throw money at programs without tangible 
results. We must carefully align funding to mission 
requirements and be able to show the American people how every 
single dollar is making our Nation safer and more secure. This 
alignment of funding to results will be the mantra of this 
Subcommittee under my Chairmanship.
    This brings us to the substance of the Department's fiscal 
year 2012 budget request, which includes some fairly austere 
and reasonably balanced proposals. But these virtues are, 
unfortunately, outweighed by the budget's substantially 
inadequate justification for the cost of disaster relief, for 
phony offsets in the form of increased fees that have yet to be 
enacted, and the undefined reductions to operational budgets. 
In total, your budget request ignores an estimated $4.9 billion 
in known disaster relief costs, relies upon $650 million in 
aviation security and custom fee revenues that have yet to 
materialize, and proposes more than $615 million in reductions 
from the Department's operational components through so-called 
administrative savings or efficiencies that are not clearly 
itemized in the Department's budget justifications.
    Madam Secretary, at a time of record deficits and mounting 
debt, the first thing we need from the administration and each 
and every department and agency across the Federal Government 
is ``truth-in-budgeting.''
    Having said that, I am sincerely pleased that your budget 
pledges to cut costs. It limits administrative overhead, 
promotes efficiency, and it places priority on frontline 
operations. And these are the priorities of this Subcommittee 
as well. But these promises will be little more than rhetoric 
if the Department does not live up to its fiscal 
responsibilities and follow through on its legislative 
proposals.
    The Department of Homeland Security cannot operate in a 
world as it would like to be; instead, it must follow the law 
as it is written. This assertion not only applies to the budget 
realities I have just outlined but also to areas where this 
administration has been reluctant to fully engage, such as 
immigration enforcement, REAL ID, and a biometric exit solution 
for US-VISIT. These are mandates the Department of Homeland 
Security must plan for, budget for, and perform.
    While I realize the enormity of this obligation, it is a 
duty the American people are counting on you to fulfill, and 
there is no room for failure. We must find a way to balance our 
limited resources across our competing priorities and numerous 
vulnerabilities in order to confront every threat with tenacity 
and with purpose.
    Madam Secretary, I know you have a tough, often thankless, 
job. That is precisely why we are relying upon you to explain 
how this budget moves our Nation's security forward and does so 
in a way that is fiscally responsible and well justified. We do 
thank you for being here today and look forward to our 
discussion and your budget request in greater detail as we move 
forward.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Aderholt. Before I turn to the Secretary for her 
statement, let me recognize the distinguished Ranking Member 
and then the former chairman of the Subcommittee, Mr. Rogers, 
for any remarks that he may have.
    Mr. Price.

                Opening Statement: Ranking Member Price

    Mr. Price. Thank you, Mr. Chairman. I want to congratulate 
you on your appointment to lead this Subcommittee. You and I 
have worked together on the Appropriations Committee for years, 
and you served on this Subcommittee in the early years. So we 
welcome you back.
    Since this Subcommittee was established under Mr. Rogers' 
leadership, the Chairman and Ranking Member have always striven 
to do our work professionally and collaboratively and in a very 
bipartisan fashion. I understand you intend to continue that 
tradition, and I very much look forward to a strong working 
relationship.
    Madam Secretary, you are no stranger to this Subcommittee 
either, of course, and I have enjoyed our working relationship 
over these last two years when I was privileged to serve as 
Chairman. We welcome you back to kick off our hearings on 
Homeland Security's fiscal year 2012 budget and a review of its 
ongoing activities.
    This past year has been one of major challenges with 
multiple attempted attacks on our homeland beginning with the 
attempted Christmas Day bombing, followed by the Times Square 
incident, and most recently the air cargo threat from Yemen. 
You have been confronting continued violence associated with 
transnational drug cartels along our Southwest Border resulting 
in the deaths of both Customs and Border Protection (CBP) and 
Immigrations and Customs Enforcement (ICE) agents, the 
challenges resulting from the Deepwater Horizon catastrophe, 
and the constant onslaught of cyber attacks on our government 
networks and critical infrastructure. So I thank you for your 
constant vigilance in facing so many competing challenges head 
on, especially as the threats to our homeland have diversified 
and proliferated.
    The 2012 discretionary budget for the Department of 
Homeland Security is $43.2 billion, about $400 million above 
the 2010 enacted level, but 1.4 percent less than the 2011 
budget request. Just as we are doing elsewhere in the Federal 
Government, you have been asked to do more with fewer 
resources.
    Your budget includes many examples where administrative and 
overhead costs have been reduced, where programs have been 
trimmed, stretched out, or suspended to achieve cost savings 
without significantly degrading critical security requirements. 
By making these reductions, you were able to preserve essential 
frontline security operations, for which I applaud you.
    I am pleased to see that you continue to prioritize the 
identification and deportation of convicted criminals, a 
program that originated after I challenged the Department to 
prioritize the identification and removal from our country of 
illegal immigrants who have been convicted of serious crimes. 
Your budget expands on this priority.
    Similarly, I am pleased to see that the budget request 
includes a significant increase in Coast Guard personnel for 
marine safety and environmental response following the 
Deepwater Horizon disaster, as well as funds for 11 maritime 
safety and security teams, recognizing that this Subcommittee 
disagreed with the 2011 request to decommission four of these 
teams.
    Finally, the budget request includes funding specifically 
to address the substantial rise in threats from homegrown 
terrorists as well as threats from across the globe. This 
includes funding within the Customs and Border Protection for 
additional targeting efforts, the Transportation Security 
Administration (TSA) for additional aviation and surface 
security efforts, and intelligence and analysis for additional 
enhancements to our State and local fusion centers to better 
manage and coordinate our intelligence-sharing agencies.
    So there are many, many items to applaud within this budget 
request. I also believe there are some challenges that this 
Committee will need to address with your help, and we will need 
guidance as we come to grips with these issues.
    First, the administration continues to underfund the actual 
needs for disaster relief funded through FEMA. The 2012 request 
totals $1.8 billion, which is likely to last only halfway 
through the fiscal year, requiring a supplemental early next 
year.
    In addition, FEMA has at least $6 billion in known 
catastrophic costs that it must reimburse localities for which 
are not factored into this budget request, and about half of 
these costs are expected to come to you in 2012. If we know the 
costs for ongoing recovery activities associated with large 
disasters, then I believe it makes sense to budget accordingly 
rather than to assume that Congress can follow behind with 
emergency supplemental bills. It is much better for the 
administration to present Congress with a workable plan to meet 
these disaster relief obligations by budgeting for them. 
Otherwise, you are virtually inviting Congress to make 
budgetary trade-offs without full vetting and guidance from the 
Department, which I am afraid is exactly what is taking place 
as we speak as we consider the 2011 continuing resolution for 
the remainder of the year.
    Second, the budget assumes the collection of $645 million 
in additional fee revenues for TSA and CBP. This includes an 
additional $1.50 in the fees charged to airlines per passenger 
resulting in $590 million in additional revenues and an 
additional $55 million in new immigration and aviation 
processing fees for Canada, Mexico, and most of the Caribbean 
Islands. Both of these fee adjustments require Congress to 
change authorizing statutes. We all know these fee proposals 
have been languishing with the authorizing committees for years 
already, so we are going to need your help in determining how 
we deal with the $645 million shortfall in your budget if 
Congress does not change these fees for 2012. Alternatively, we 
are going to need the administration to work very seriously 
with the authorizers to get these proposals enacted.
    Finally, I have some reservations about your cuts to 
automation and construction accounts in your budget, and I 
would be very surprised if you didn't also have some 
misgivings.
    This Subcommittee has had to fight repeatedly against 
irresponsible cuts to the front office, irresponsible cuts for 
construction to new DHS headquarters and related lease-
consolidation efforts and to protect your information 
technology needs. You and your associates have had to testify 
repeatedly about the importance of these requirements. Just 
last year we had a very impressive hearing on the cost savings 
associated with DHS offices being collocated at St. Elizabeths 
or in fewer spaces. We were told, and we were told very 
convincingly, that deferring these investments will ultimately 
affect frontline operations and will cost us more money in the 
long run. I want to make sure we are not being penny wise and 
pound foolish with these cuts, and we will welcome your 
explanation in this regard.
    As we began our hearings to more closely examine the 
budget, it is important to note that no program or account will 
be off limits to scrutiny. Our obligation is to take a 
balanced, realistic approach, to weigh risks carefully, and to 
make prudent investments in effective security. Secretary 
Napolitano, I have no doubt that you share this point of view, 
and I look forward to working again with you this year.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Mr. Price.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Aderholt. At this time I would like to recognize the 
full Committee Chairman and former chairman of this 
Subcommittee Mr. Rogers.

                   Opening Statement: Chairman Rogers

    Mr. Rogers. Thank you, Mr. Chairman. And congratulations to 
you for assuming that chair. I have a warm spot in my heart for 
that chair on this Subcommittee, and this Subcommittee and the 
Department. And it is good to be back on the same platform with 
my friend David Price. We had a wonderful working relationship 
and still do. And we welcome all the new Members of this 
Subcommittee.
    And thank you, Madam Secretary, for being with us today. 
This marks the eighth anniversary of the Department. I am proud 
to say that I was there at the beginning and helped, along with 
others, nurse it along, and continue to do so, and I always 
wish you and the Department well.
    This is truly an historic time. I don't have to tell you 
that our Nation has found itself at a crossroads. Over the last 
2 years, we have increased discretionary spending by 24 
percent, 84 percent if you include the stimulus monies. We are 
borrowing 42 cents on every dollar we spend. And so it is time 
to get serious, we have to, about reducing spending and putting 
a dent in the record-setting deficit that we all abhor.
    In that vein, I certainly applaud your efforts to cut costs 
and limit administrative overhead. I do have some serious 
concerns about the budget request.
    While the President has essentially leveled out non-
security spending in his 2012 request, your request is actually 
$300 million lower than in fiscal year 2011, marking the first 
time the Department has decreased its request from one fiscal 
year to another.
    There is no question that the Department plays a vital role 
in fighting terrorism and keeping our country safe. That is 
what it is for. And the brave men and women in our law 
enforcement community ought to be commended for the good work 
they do, and I do that right now. And that is why, for the past 
few years, I have pushed and pushed for you to place a stronger 
emphasis on operations in your budgeting.
    I am happy to see that you are taking steps in that 
direction; however, many of the cost reductions you have noted 
in your budget request should be further scrutinized. These 
cost-cutting gimmicks only undermine these great pledges to our 
men and women on the front lines. The budget proposal simply 
ignores some $5 billion in known disaster-relief costs, and 
offsets other costs with $650 million in fees that Congress has 
yet to approve all these years. If we are going to be serious 
about deficit reduction, we have got to stop fudging numbers.
    We have got some tough choices, and I look forward to 
hearing from you today about the administration's priorities. 
As I have said many times, when it comes to the security of the 
country, we should spend all the money we can, but not a penny 
more. That adage has never been more salient than today when 
considering the fiscal and security challenges confronting our 
Nation.
    In closing, I note that the estimated costs now of the St. 
Elizabeths facility has now gone up another $200 million or so. 
I asked last year, I think it was, for assurances that the cost 
that was projected at that time would be accurate and final, 
but it has already gone up another $200 million. We have got to 
find a way to discipline that spending. It is good to be with 
you and see you.
    Mr. Aderholt. Mr. Dicks.

                Opening Statement: Ranking Member Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    And I want to welcome Secretary Napolitano and congratulate 
her on the good work that the Department has been doing. I 
think it has made a lot of improvements. I was on the 
authorizing committee for three terms, and, to put it bluntly, 
there was a lot of disorganization at Homeland Security and an 
inability to do good procurement work.
    The issue I am concerned about--I am not going to get into 
this in great detail today, but I would like to have somebody 
come up and give me a briefing on this and meet some of your 
people--on cybersecurity issues. I have served as chairman and 
ranking member of the Defense Subcommittee and on the 
Intelligence Committee, and I believe the cybersecurity issue 
is one of the top three issues that face our country. And the 
Department plays a major part in this on the ``dot.gov'' part 
of the equation and working with the private sector. And it is 
my understanding, having met with some of the people, I think, 
from your Department earlier, that the Department doesn't have 
all the authorities that it may need in order to deal with the 
private sector effectively. So, again, I welcome you. But I 
would like to work this out to arrange it with your office to 
get this briefing so we can see it.
    [The information follows:]

    The subject briefing was provided March 7, 2011.

    Also, if you would just in your statement talk a little bit 
about the agreement that you and Secretary Gates agreed to. It 
is supposed to be a landmark memorandum of agreement. So I 
would appreciate if you could mention or talk about that a 
little bit.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Mr. Dicks.

                Opening Statement: Secretary Napolitano

    Mr. Aderholt. And again, we welcome the Secretary. And we 
will turn it over to you for your comments.
    Secretary Napolitano. Well, thank you, Chairmen Aderholt, 
Price, Rogers, Dicks, and Members of the Committee, for the 
opportunity to discuss President Obama's fiscal year (FY) 2012 
budget for the Department of Homeland Security (DHS). And I 
would be happy as well to answer questions about the House 
continuing resolution for FY 2011.
    The demands on DHS have never been greater. This is 
especially true as we remember those at the Department who have 
given their lives in service to our mission of securing 
America, including most recently Border Patrol Agent Brian 
Terry and U.S. Immigration and Customs Enforcement (ICE) 
Special Agent Jaime Zapata. Mexico is leading the criminal 
investigation into the death of Agent Zapata, and we are 
supporting Mexico through a joint Department of Justice/DHS 
task force that the Attorney General and I announced 2 weeks 
ago. Recently Mexican authorities have apprehended some of the 
alleged killers of Agent Zapata, and we are conducting a number 
of operations throughout the United States related to the drug 
cartels.
    I can speak for the entire administration when I say we are 
not only saddened by the loss of an agent, but we are outraged 
by this act of violence against an officer of the United 
States. And make no mistake, justice will be brought to those 
involved. We owe nothing less to the memory of Agent Zapata and 
to those who are still on the job in Mexico.
    Now, the loss of these brave agents is a stark reminder of 
the sacrifices made by the men and women of DHS every day. It 
also strengthens our resolve to continue to do everything in 
our power to protect against, mitigate, and respond to threats, 
and to make our Nation more resilient for years to come.
    Today's threat picture features adversaries who evolve 
quickly and are determined to strike us here at home, from the 
aviation system and global supply chain to surface 
transportation, to critical infrastructure, to our cyber 
networks.
    We are leading the administration's unprecedented effort to 
strengthen Southwest Border security, coupled with a smart and 
effective approach to enforcing immigration laws in the 
interior of the country. And we continue to prepare for, 
respond to, and recover from disasters of all types.
    President Obama's FY 2012 budget for the Department allows 
us to continue to meet these evolving threats and challenges by 
prioritizing our essential operational requirements while 
reflecting an unprecedented commitment to fiscal discipline 
that maximizes the effectiveness of every security dollar we 
receive. Reflecting the current fiscal environment and building 
the FY 2012 budget, all DHS components identified savings 
associated with the Department's 33 efficiency review 
initiatives, and we cut administration and overhead, including 
my own office's budget, by over $800 million. Savings were 
realized through efficiencies in acquisition, asset and real 
property management, as well as employee vetting and 
credentialing, hiring and onboarding, and information 
technology. We cut professional services contracts, travel, and 
nonmission-critical training. We also delayed construction of 
Federal Emergency Management Agency (FEMA) Offices at the new 
DHS headquarters at St. Elizabeths and deferred a number of 
office co-locations as well as building maintenance and 
enhancements.
    My written statement includes a comprehensive list of the 
operational priorities in the budget request. Today I would 
like to highlight just a few of those priorities for you.
    First, preventing terrorism and enhancing security. Now, 
this was the founding mission of DHS. It remains our top 
priority today. This budget safeguards transportation modes 
through a layered detection system, including the deployment of 
additional transportation security officers (TSOs), behavioral 
detection officers, canine teams, and advanced imaging 
technology (AIT) machines at domestic airports, while expanding 
watch list vetting through the Secure Flight program and 
enhancing screening and targeting of international travelers 
before they board U.S.-bound flights through the Immigration 
Advisory Program.
    This budget also strengthens surface transportation 
security by supporting 12 new multimodal Visible Intermodal 
Prevention and Response (VIPR) teams, which conduct operations 
throughout the transportation sector to prevent potential 
terrorist activity. The request also provides funding for the 
Securing the Cities program to protect our highest-risk cities 
from a radiological or nuclear attack. In addition, the request 
makes a significant investment in the National Bio and Agro-
defense Facility (NBAF), which will provide enhanced diagnostic 
capabilities to protect our country from foreign animal and 
emerging diseases. The request expands support for the national 
network of State and local fusion centers to enhance baseline 
capabilities and provide local law enforcement with the tools 
to address threats in their communities.
    To secure and manage our borders, the request continues the 
administration's historic border security efforts by supporting 
21,320 Border Patrol agents and 21,186 Customs and Border 
Protection (CBP) officers, both all-time highs. The budget 
includes $242 million for the continued deployment of proven 
effective surveillance technology along the highest-trafficked 
areas of the Southwest Border to better meet the operational 
requirements of our agents on the front lines. For the northern 
border, this budget request supports investments in technology 
tailored to the maritime and cold-weather environment, 
including proven stand-alone technology to provide immediate 
operational benefits. And for our Nation's maritime borders, 
this budget includes funding to continue the essential National 
Security Cutter program and makes historic investments to 
recapitalize the Coast Guard's aging assets, including 6 fast 
response cutters, 40 response boats, as well as a sizeable 
investment in the renovation and restoration of aging shore 
facilities.
    This budget request also continues the Department's focus 
on smart and effective enforcement of our Nation's immigration 
laws, while streamlining and facilitating the legal immigration 
process.
    Building on our record over the past 2 years, the 
Department will continue to prioritize the identification and 
removal of criminal aliens who pose a threat to public safety, 
and target employers who knowingly and repeatedly break the 
law. The request enables ICE to fund 33,400 detention beds, 
remove more than 200,000 criminal aliens, and deploy Secure 
Communities to 96 percent of all jurisdictions nationally in FY 
2012, while promoting compliance with work-site-related laws 
through criminal prosecution of egregious employers, Form I-9 
inspections, and continued expansion and enhancement of the E-
Verify system. The request also funds immigrant integration 
efforts, including programs supporting English-language and 
citizenship education, and continues the detention reform 
efforts currently under way.
    To safeguard and secure cyberspace, the budget increases 
resources to identify and reduce vulnerabilities in our 
Nation's key cyber networks. The request includes significant 
investment to expedite the deployment of EINSTEIN 3 to prevent 
and detect intrusions on government computer systems, increase 
Federal network security of large and small agencies, and 
continue to develop a robust cybersecurity workforce to protect 
against and respond to cybersecurity threats. The budget also 
focuses on combating cyber crime and preventing attacks against 
U.S. critical infrastructure.
    To ensure resilience to disasters, the budget request 
focuses on moving resources out of Washington, D.C., and into 
the hands of State and local responders, who are often best 
positioned to detect and respond to terrorism, natural 
disasters, and other threats, by sustaining Federal funding for 
State and local preparedness grants, providing more than $3.8 
billion in FY 2012. This funding includes $670 million for 
Assistance to Firefighter grants, and that funding includes 
$420 million to rehire an estimated 2,300 laid-off firefighters 
and retain veteran first responders.
    To lead and support essential national and economic 
security efforts, this budget expands the Coast Guard's 
operational capacity by funding 50,682 military and civilian 
positions, and establishes the Coast Guard's first Incident 
Management Assistance Team, which will be deployed rapidly to 
support incidents of national significance.
    The request also continues to support ICE and CBP efforts 
and investigative efforts to protect U.S. intellectual property 
rights, as well as the Secret Service's state-of-the-art 
forensic support to the National Center for Missing and 
Exploited Children.
    Mr. Chairman, this budget is the culmination of a major 
first-of-its-kind effort by the Department through the 
Quadrennial Homeland Security Review as well as the Bottom-Up 
Review to align our resources with a comprehensive strategy to 
ensure a safe, secure, and resilient Homeland, while making an 
unprecedented commitment to fiscal discipline.
    Mr. Chairman, Representative Price, Members of the 
Committee, I want to thank you for this opportunity to testify. 
I ask that my full statement be included in the record. I am 
happy to address your questions, particularly as they relate to 
the Disaster Relief Fund (DRF), to the Transportation Security 
Administration (TSA) and CBP fees, and to the impact of the FY 
2011 H.R.1. Thank you.
    Mr. Aderholt. Thank you, Madam Secretary, for your opening 
comments.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          DISASTER RELIEF FUND

    Mr. Aderholt. And certainly FEMA's disaster relief fund is 
something I think of concern. FEMA has requested $1.8 billion 
in the fiscal year 2012 request for the DRF, and there are no 
funds requested for prior-year catastrophic events.
    The bottom line is that your fiscal year 2011 budget and 
your fiscal year 2012 request do not support these disaster 
relief costs for the rest of the year or next, and we would 
like to know your plan in regard to that. How will you complete 
the year when you are clearly short of required funding for 
fiscal year 2011 by $1.6 billion?
    Secretary Napolitano. Mr. Chairman, a few, I think, salient 
points in response to that.
    First, one of the things that we have focused on is going 
backward in FEMA and returning funds to the DRF that had 
previously been obligated but not used. By that process, we 
returned approximately $2 billion to the DRF in FY 2010, and 
those efforts continue to be under way.
    Secondly, for many, many years, under both Republican and 
Democratic administrations, under different majorities in the 
Congress, the DRF has been funded by taking a rolling average 
of noncatastrophic disasters, in this case a 5-year rolling 
average of noncatastrophic disasters, which are disasters that 
are less than $500 million, and that average goes into the DRF 
base. But because of unpredictability and other factors, 
including, for example, years after the fact, the ability to go 
back and see what was actually used and to deobligate funds, 
the Congress and the administration have relied on 
supplementals to support the DRF. I think it is the 
administration's intent to come back when there is an 
appropriate number and work with the Congress on what a 
supplemental would look like for the DRF in accord with 
historic practice.
    Mr. Aderholt. What is the funding requirement for fiscal 
year 2012 for prior-year catastrophic events?
    Secretary Napolitano. For prior catastrophic events? It is 
hard to say given the deobligation issues. I would say, the 
funding requirement is approximately between $2 billion and $3 
billion.
    Mr. Aderholt. But clearly these costs are not measured in 
fiscal year 2012; is that correct?
    Secretary Napolitano. They are not in the baseline budget. 
That is correct.
    Mr. Aderholt. Madam Secretary, as we stated earlier, your 
budget request significantly underfunds DRF for 2012 because of 
that reason, based on your comments that you foresee that there 
will be an emergency request over the next several months for 
fiscal year 2012.
    Secretary Napolitano. What we anticipate, Mr. Chairman, is 
that we would proceed as the DRF has been handled historically, 
which is, yes, to finish the fiscal year with supplementals 
related to catastrophic disasters.
    Mr. Aderholt. And I think the concern is, and we have sort 
of been dancing around it, that it is really a ``truth-in-
budgeting'' issue. The historic data shows that the funding for 
some of these disasters is in the billions of dollars, and we 
know that it will be. So I'm concerned that you are not 
bringing that up into the current request, and it really just 
comes down to a truth-in-budgeting issue from the beginning I 
think. This is a concern to this Subcommittee.
    Secretary Napolitano. Mr. Chairman, we are happy to work 
with you on the DRF issue. As I said before, the budget has 
been written in accord with how the DRF has always been 
handled, in part because of the unpredictability of the size of 
disasters when a budget is submitted. But we are happy to work 
with you. And as I stated, the intent of the administration 
would be to seek an appropriate supplemental at the appropriate 
time.

         AVIATION SECURITY FEE INCREASE: FEASIBILITY IN FY 2012

    Mr. Aderholt. Let me move on, because I do know that we 
have votes that will be coming up soon. I know you have to be 
out later this afternoon for other obligations. So let me move 
on to the issue of user fees, aviation security, and Customs.
    In the fiscal year 2012 request, it assumes an increase in 
the aviation passenger security fees and a change in the COBRA 
fee for Customs processing. Given the difficulty in getting 
aviation security fee increases and Customs fee changes enacted 
in the past, I guess the question that I would pose to you is: 
is it realistic to think that your proposals can get 
implemented this year?
    Secretary Napolitano. Well, we will work with the 
authorizers. And, indeed, I have been speaking with the 
authorizers about the need for this. But it seems to me, Mr. 
Chair, that in this era of fiscal discipline, one of the things 
that we ought to be looking at is what is the true cost of an 
enplanement security fee, what is the true cost in Customs.
    The security fees have not been adjusted for TSA since 
2002, and the plain fact of the matter is that we know that 
aviation remains a key target of our adversaries. We know that 
we have to provide additional security. We know that a small 
increase in the security fee enables us to do this and cover 
all of the security responsibilities we have against all the 
modes of transportation.
    So we will work with this Committee; we will work with the 
authorizers. But the consequence of not having these fees is 
very serious for the operations of this Department. It is 
effectively another $600 million out of operations that would 
come directly out of the front line.
    Mr. Aderholt. So if the fees are not implemented in time, 
then how do you foresee filling in that $600-plus million gap?
    Secretary Napolitano. First of all, we assumed that they 
would not be ready by the beginning of the fiscal year, so the 
number that we use is only for the third and fourth quarters of 
the fiscal year 2012, in part because there needs to be a 
rulemaking associated with the fees. But we have been to this 
Congress before. We are here at this Congress again. I think in 
this fiscal time, the authorizers are perhaps more receptive to 
acknowledging that this should come out of almost a user fee, a 
security fee arrangement, as opposed to out of the general tax 
base.
    Mr. Aderholt. Well, and certainly that is our concern here 
on the Subcommittee, and we have discussed this, is the fact 
that the reality of these, they may not be implemented in time. 
And so that would be something that again we would be concerned 
about, and we want to just bring that to your attention.
    Let me go to Mr. Price now and turn the mic over to him.

              GOVERNMENT SHUTDOWN: POTENTIAL IMPACT ON DHS

    Mr. Price. Thank you, Mr. Chairman.
    Madam Secretary, the President has a few hours ago signed a 
2-week extension of the continuing resolution to keep the 
government running. After that it is anybody's guess as to what 
extent the new House leadership is interested in responsibly 
discharging their duties, or whether they will continue to 
insist on slashing domestic programs, which individually and 
cumulatively threaten to stall the recovery, while ironically 
leaving 88 percent of the budget untouched.
    Having said that, many are drawing comparisons to the split 
between the Republican Congress in 1995 and President Clinton 
on the budget, which led to a government shutdown. The 
Department of Homeland Security, of course, was not around when 
that happened.
    In this uncertain budget requirement, have you been 
considering the implications of a budget impasse and a 
potential shutdown? What impact would this have, or indeed has 
it already had, on DHS?
    Secretary Napolitano. Well, I think, Representative Price, 
managing a large agency by continuing resolution is 
extraordinarily difficult. We are already halfway through the 
fiscal year, and you are trying to make plans about how many 
agents you have to put where, where your equipment could be, 
will you have it, can you fix this, so forth.
    In terms of the 2-week extension and the possibility of an 
impasse and a shutdown, because we were not around in 1995, we 
have been looking at what would be shut down and what would be 
exempt. We have made some judgments that are internal to the 
Secretary's office right now as to what would stop, what would 
be partially stopped, and what would need to continue. I think 
it is fair to say that frontline personnel would continue. But 
those who support the frontline personnel and enable them to do 
their job most effectively, a number of those types of 
positions would not be able to be sustained.
    The thing I am also concerned about, I must say, is that a 
number of our frontline positions are not very well paid: 
Border Patrol officers, TSOs in our airports, the ones we 
really rely on to be the last line of defense for entry into 
the country or protection of an aircraft. Many of our employees 
live paycheck to paycheck. And even when you work under a 
shutdown scenario, you don't get paid until Congress catches 
you up. That is a hardship as well.
    So we are hopeful. I am hopeful that this will be worked 
out, and that Congress will reach a resolution on fiscal year 
2011. I thought I would share that with you.
    Mr. Price. Thank you. It does strike one that so many of 
your personnel are, in effect, waiting for some kind of 
disaster to strike, most obviously in FEMA with natural 
disasters. There is a kind of depth of capacity that is 
required that is not immediately engaged in an emergency maybe, 
but nonetheless needs to be on call at very rapid notice. In 
that kind of situation, it strikes me as especially difficult 
to discern between essential and less essential personnel, or 
emergency and nonemergency personnel.
    Secretary Napolitano. Representative Price, you are exactly 
right. It is going to be, in some of these areas very, very 
difficult to make those judgments. And, again, even for those 
who are deemed exempt from a shutdown, they will be undergoing 
financial hardship.

                     H.R. 1: IMPACT ON DHS FUNDING

    Mr. Price. Let me, in the limited time I have remaining, go 
back to this question of how we fund for emergencies. And there 
clearly is an ongoing discussion we need to have here, but I 
don't have a hard time concluding that whatever one thinks 
about what the initial budget should look like, it is not a 
very good practice in the middle of the fiscal year to 
cannibalize other DHS accounts to pay for unaccounted-for 
costs. In fact, H.R. 1, reduces DHS funding to levels prior to 
the 2009 Christmas Day attack to pay for disaster relief. That 
is not an ideal situation, to put it mildly, and I don't think 
we ought to replicate it in the future.
    So I wonder if you could tell us today, what are the 
consequences of lowering the boom in this way, halfway through 
the fiscal year, by cutting 1 point--$5.65 billion in DHS 
activities to make up for the disaster relief shortfall?
    Secretary Napolitano. Well, H.R. 1 has some very serious 
impacts for the Department. I mean, there are impacts on 
counterterrorism. We will cut the number of AIT machines we 
were intending to deploy to protect lanes at airports in half. 
We will cut the number of explosive trace detection machines 
that we could make available by half. We will cut the number of 
canine teams by almost two-thirds. This will have an impact on 
aviation security.
    It does, Mr. Chairman--I think we have a disagreement on 
this point, but in my reading of it, 250 ICE agents who are 
currently paid for would not be paid for under the H.R. 1. That 
is a problem. And we can talk about why that is, but that is 
our count. It could reduce FEMA grants by almost $1 billion. 
And, as you know, that really will affect State and local 
preparedness.
    I could go on, but there are very real operational impacts 
by H.R. 1 because does not fund the President's requested FY 
2011 budget.

                          DISASTER RELIEF FUND

    Mr. Price. We need to have an ongoing discussion about the 
normal practice for disaster funding and including it into the 
budget. I don't perceive any disagreement at all about the dire 
consequences of lowering the boom in this way halfway through 
the fiscal year. That is what I wanted to get you to elaborate 
on, and I would invite you to elaborate further for the record.
    Before my time expires, though, let me ask the obvious 
remaining question. Does this mean we will be expecting a 
supplemental from you? Would you expect that you would be 
submitting a disaster relief supplemental sometime later this 
year?
    Secretary Napolitano. Representative Price, as I stated 
earlier, the budget was planned based on the historical 
practice, which is, yes, you fund the base, and then you seek a 
supplemental. So the answer is yes. And we would work with the 
Committee on that.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Aderholt. Madam Secretary, you mentioned the ICE 
agents, and I am forced to respond to that, because H.R. 1 
actually does provide an increase to ICE above FY 2010 based 
upon technical budget assistance that your staff provided the 
Committee. H.R. 1 sustains all ICE agents, especially those 
deployed along the Southwest Border, and supports the same 
33,400 bed funding that it did in fiscal year 2010. In fact, 
H.R. 1 actually increases the numbers for CBP, ICE, and the 
Coast Guard above the fiscal year 2010 level, and sustains the 
funding for TSA operational functions and all the intelligence 
officers across the Department. So I did want to point that 
out.
    Now I would like to recognize the full Chairman, the former 
chairman of this Subcommittee, Mr. Rogers for questions.

       AVIATION SECURITY FEE INCREASE: JUSTIFICATION FOR FY 2012

    Mr. Rogers. Thank you, Mr. Chairman.
    Just a note about the proposed fee increase. There you go 
again. We have been facing this for years. Every year, whomever 
the Secretary was always comes in with this fee increase, 
knowing that Congress is not going to do it, and we won't do 
it. And we don't know yet what you would do to replace that big 
$600 million hole, and my information is that your budget 
request assumes that that fee would be in place for all of 2012 
to produce $589,940,000, not the last quarter but the whole 
year. That is the justifications that I have seen.
    Secretary Napolitano. Mr. Chairman, first of all, I think 
in response to the Chairman's last comment, I believe our 
staffs need to get together. There clearly is a strong 
difference of opinion as to what H.R. 1 does to ICE agents.
    With respect to the fee, Mr. Chair, it seems to me that in 
an era of fiscal restraint or fiscal discipline, or whatever we 
want to call it, we all know we have a tough fiscal time. And 
this is a dire situation. To continue to come back, as I now 
have, the third Secretary, and say we need to have a security 
fee for enplanement that is commensurate with the cost of 
providing the security, to say that the fee is a no-go from the 
outset, to me, means that the general taxpayer has to pick up 
the cost or the income generated.
    Now, the airlines have not experienced any deleterious 
impact by imposing fees to check baggage or to buy a Coke on an 
airplane. And it seems to me that, at this particular juncture, 
where the Federal budget is under stress, resuscitating this 
idea as a real idea that makes sense from a policy and a fiscal 
perspective is the right thing to do. We will work with the 
authorizers on that. I have already done that. And we want to 
work with this Committee on it. But right now we are stuck with 
a fee that in no way covers the actual costs of the service we 
are providing.
    Mr. Rogers. Well, it has been proposed every year since I 
have been chairman of the Subcommittee, I think, virtually 
every year, and we always turn it down. And I don't see any 
change in that this time.
    Secretary Napolitano. Well, this is the first year, Mr. 
Chairman, respectfully, that we have been in this kind of a 
fiscal situation. So if I might respectfully request, 
everything deserves a fresh look, and this does as well.

         TRANSPORTATION SECURITY ADMINISTRATION: PERSONNEL CAP

    Mr. Rogers. Well, whatever the Ways and Means Committee or 
whomever does, we have to find $600 million. It is a plain 
fact. And we can't rely upon this fee being authorized, because 
it never has been, and it has been tried year after year.
    But I wanted to move on to something else. I have been a 
proponent on this Subcommittee all along of trying to utilize 
electronics and equipment and mechanization to the maximum to 
try to help us with the personnel costs of TSA. And you have 
pushed that, too. But I don't see us making much headway. I 
think the employment level at TSA is now at 52,269. I remember 
when we put a cap on the employment levels at TSA a few years 
ago at 45,000 just for screeners. And I don't see much impact 
mechanization or using of equipment and machinery is doing us 
much good in reducing the personnel at TSA. I know the airports 
I fly through, I see a lot of personnel not doing anything, and 
I think that is the universal thing that practically all of us 
would agree to.
    In H.R. 1, we reintroduce the FTE levels at 46,000 in an 
attempt to prompt you to more closely examine your 
requirements. And I know that we are placing some new machines 
in out there that are going to require probably more personnel, 
but I don't see us saving personnel on the other side of that 
equation. What do you say about a cap again of 46,000 in TSA?
    Secretary Napolitano. Well, Mr. Chairman, I have some real 
problems with that for several reasons. One is I don't know 
where the 46,000 came from. It could be 47-: it could be 48-.
    But second, once this Congress sets a cap, it is like 
setting our security fee in 2002; getting that changed, no 
matter the circumstances, can be very, very difficult.
    And, number three, as you have noted, we are now installing 
AIT machines. The threat in aviation is different than it was 
several years ago. It is different in the sense that our 
adversaries are now clearly using or trying to use and get onto 
planes material that is nonmetallic in nature--powders, gels, 
or liquids--that could be used as an explosive. And that means 
that we have to move into, and quickly, this next-generation 
machinery, the AITs. Our budget supports the personnel 
necessary to put 500 more AITs on airport lanes in fiscal year 
2011.
    And then, last, I think it is important to note that the 
security laydown in an airport is not all constituted by TSOs 
who you observe there. There are undercover TSOs, there are 
behavioral detection TSOs, and there are also individuals who 
operate in canine teams in the airports. So there is a whole 
mixture of things, different layer of things necessary to 
secure the air environment.
    So my view is, or my judgment is that, rather than an 
arbitrary cap, we work together to make sure that we have got 
the right mix of technology and personnel every year necessary 
to meet the threats that we have.
    Mr. Rogers. Well, I agree with you on that, but I don't 
think I have seen enough effort to get technology involved to 
replace personnel that in off times during the day at the 
airport have nothing to do during the non-peak hours.
    Secretary Napolitano. Well, if I might, Mr. Chairman, 
again, one of the consequences of H.R. 1 is it cuts in half our 
Science and Technology budget. That is the budget that funds, 
among other things, the research that we are doing with the 
national labs to look at the checkpoint of the future. How do 
we get beyond what we have now and get to something that allows 
people to keep their shoes on and to carry a large bottle of 
water on a plane and so forth? The technology simply doesn't 
exist right now to do that or to do it safely. That is in the 
research and development part of the budget and--S&T, Science 
and Technology, excuse me. Sorry for using acronyms. And that 
itself, that whole budget was cut 50 percent in the continuing 
resolution.
    Mr. Rogers. Well, you are asking for an additional 510 
transportation security officers assumedly to be financed by 
the fee increase. But an increase of 510 additional officers on 
top of what we have, when I see at the airports that I travel 
through personnel that could easily handle the new machines 
without any increase in personnel at that airport, what do you 
say about that?
    Secretary Napolitano. Well, I can't speak to what you see 
at which airports. All I can say is we know now, with pretty 
hard certainty, what it takes to operate an AIT for the number 
of hours it needs to be operated in an airport environment, and 
our budget and the personnel we request is based on that. It is 
actual experience.
    Mr. Rogers. Madam Secretary, thank you.
    Secretary Napolitano. Thank you, sir.

          CYBERSECURITY: AGREEMENT WITH DEPARTMENT OF DEFENSE

    Mr. Dicks. I know we are short on time here, and we have to 
go vote. Tell us about what you are doing on cybersecurity and 
what this agreement you reached with Secretary Gates will 
accomplish.
    Secretary Napolitano. The agreement with Defense Secretary 
Gates allows us to co-locate personnel. He has some folks in 
our shop; we have some folks in his. More importantly, 
Representative Dicks, it enables us to be able to use or have 
access to the technological resources of the National Security 
Agency. We have people now located there. We have a lawyer with 
them, and we have a privacy officer with them, because there 
are different rules that apply in the civilian environment than 
the military. But the resources of the NSA are key.

              CYBERSECURITY: AUTHORITY OVER PRIVATE SECTOR

    Mr. Dicks. That is good.
    Now, my time is very short. What about authority? Do you 
need more authority over the private sector to get them to do 
the things necessary to protect themselves? Talking about 
utilities, financial institutions, things of that nature, that 
could be vulnerable.
    Secretary Napolitano. The subject of authorities is 
something that we would like to discuss with you. The answer is 
we have been working with different committees as a cyber bill 
was being prepared, looking at clarifying and improving on the 
authorities we do have. Yes, sir.
    Mr. Dicks. How does the private sector do on their own? Are 
they taking this threat seriously? I understand that $1 
trillion has been lost in intellectual property worldwide 
because of cyberattacks.
    Secretary Napolitano. It----
    Mr. Dicks. That is a big deal.
    Secretary Napolitano. It is a big, big deal. And I would 
say that we have good connectivity with some sectors of the 
private sector and not so good with some others. It varies. But 
some of the key ones, for example, financial institutions, the 
connectivity is very good.
    Mr. Dicks. Thank you.
    Mr. Aderholt. Let me thank you, Madam Secretary. We have a 
vote, as you probably know by now. I know you have to leave at 
5:00 today.
    Secretary Napolitano. 4:45, excuse me, sir, for a 5 
o'clock.
    Mr. Aderholt. What we are going to do is when we vote, 
quickly come back. I know some other Members want to ask a few 
questions.
    Secretary Napolitano. I will try to keep my answers 
shorter.
    Mr. Aderholt. I will encourage everyone to hustle back 
right after the vote. Thank you.
    [Recess.]
    Mr. Aderholt. Mrs. Lowey, you are recognized.

                URBAN AREAS SECURITY INITIATIVE: FUNDING

    Mrs. Lowey. Thank you, Mr. Chairman. Thank you very much. 
And it is also a pleasure to be with you today. We thank you 
for your service and your leadership.
    Let me start by saying I appreciate that the fiscal year 
2012 request proposes increased funding to the Urban Areas 
Security Initiative, the UASI program. However, a $34 million 
increase in UASI funding strikes me as insufficient if we are, 
in fact, at our most heightened state since 9/11, as you 
recently said, and when the program is authorized at $1.3 
billion for fiscal year 2012. Given the grave threats we face, 
why is the administration request nearly $400 million below the 
authorized level for this program?
    Maybe I will ask the rest of the questions. That is the 
first. Along those lines, UASI funding has continually been 
diluted by increasing the number of recipients. What started as 
a program for 7 urban areas now serves 64. Every area of the 
country deserves funds, I want to make that very clear, but not 
from the high-risk program. I attached an amendment to the CR 
to limit UASI funding to the top 25 highest-risk regions, 
restoring the program to its original intent. So will you 
commit once and for all to stop using the UASI program as a 
form of DHS pork-barrel spending and limit recipients to only 
high-risk, high-density urban areas for which it was dedicated?
    Secretary Napolitano. Well, Representative, first of all, 
the President's fiscal year 2012 budget for grants maintains 
the overall grant level, about $3.8 billion. It also requests 
that we be allowed to consolidate grants so that grants can be 
used by localities for various purposes. I think we now have 17 
different grant programs that have been established over time. 
We think that can be compressed to everybody's advantage.
    With respect to the UASI or the tiering of high-risk 
locales, we have a methodology we use to evaluate risk. As I 
mentioned at a hearing earlier, another hearing earlier this 
morning, there are risks that you can identify in all areas of 
the country. And so one of the things that happens is that, 
through formula requirements of the Congress, all areas of the 
country get at least some base level for preparedness, for 
response, and the like. We will continue to work to refine 
that. We will continue to work with the Congress to make sure 
the money is going where it will have the most beneficial 
effect.
    And last, one of the things I would mention is that the 
President has requested funding this year for the Securing the 
Cities program, which is a program to fund sensors for 
radiological or nuclear devices. It is being piloted in New 
York, particularly around devising sensors for the tunnels and 
the bridges there. And we hope that if the President's fiscal 
year 2012 budget is funded, we would be able to add one more 
pilot location at a major U.S. city as well.
    Mrs. Lowey. Well, let me just say I have been to that 
location, and I hope to bring the Chair to New York and perhaps 
the airports just to see the money in action. And I am very 
impressed with what Commissioner Kelly is doing with that 
money. And I am glad that there was wise decision made so that 
would be in the budget.
    But I do hope you will look at the UASI funding again, 
because I want to make it very clear, I am not thrilled about 
being ``number one'' as a New Yorker and living in a high-
threat area, but to divide the money, that money that is for 
high-threat areas. Where areas should be getting other funds, 
fine, everyone needs funding, but if this started with 7, and 
it is now at 64, I think 25 might be a reasonable number for 
this program, and others can apply for other programs. So I 
would appreciate your consideration.
    Secretary Napolitano. Thank you.
    Mrs. Lowey. Thank you.
    Mr. Aderholt. Mr. Dent.

                       CHEMICAL FACILITY SECURITY

    Mr. Dent. Thanks, Mr. Chairman.
    Good to see you, Madam Secretary. Just a couple things. On 
chemical plant security, chemical facility security rather, we 
passed legislation in 2009 on Chemical Facility Anti-Terrorism 
Standards (CFATS) with some adjustments, including 
implementation of the inherently safer technology (IST) issue. 
I have introduced legislation again this Congress to extend the 
CFATS for about 5 years, up to 2015. Do you support a long-term 
extension of these CFATS regs?
    Secretary Napolitano. Yes.
    Mr. Dent. Very good. And if IST was federally mandated, 
does the Department have the professionals in place to 
implement the IST requirement on regulated chemical facilities?
    Secretary Napolitano. Let me check back on that, because I 
don't want to give you an inaccurate answer. My understanding 
is that we would be--as in all things CFATS related, we would 
stack up appropriately.
    [The information follows:]

    Representative Dent's office was contacted March 21, 2011 and 
briefed on the capability. A follow-on briefing involving 
Undersecretary Beers is under consideration.

    Mr. Dent. Okay. Because I just want to make sure the 
Department has a grasp on the financial consequences of the IST 
mandates. It is very, very expensive, and you need a lot of 
people. And there are potential job losses tied to that issue 
in the private sector.

            ADVANCED IMAGING TECHNOLOGY: PASSENGER EDUCATION

    On passenger screening--I am going quickly because I only 
have a minute--the budget proposal requests an additional 200 
units for installation. As you know, I have been very 
supportive of the AIT and other passenger-screening 
initiatives. And the big issue is what are we doing to educate 
the public better about AIT and other passenger enhancements? 
We went through that situation back around Thanksgiving where 
there was a lot of public discontent with some of the 
practices. What are you doing to help educate the public, as 
well as Members of Congress, because we are going to face 
amendments on AIT, I suspect, as we deal with this Homeland 
Security appropriations bill in 2012.
    Secretary Napolitano. Well, first of all, experience is the 
best educator. More and more passengers now have gone through 
the AITs. They recognize that it is actually fast, it is 
thorough, it is the next wave of technology, and it makes 
airports safer and air travel safer. And if you say to 
passengers, ``Do you want to fly on a plane where people have 
been through the AIT or not through the AIT?''--they are going 
to pick the AIT. But we are also doing in-airport education, 
and we are making a lot of information available to the TSA.
    Mr. Dent. I have additional questions. I will submit them 
for the record. Thank you.
    Mr. Aderholt. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. Are you operating under 
a special time limit at the moment?
    Mr. Aderholt. Three minutes.

                ADVANCED IMAGING TECHNOLOGY: MODEL TYPES

    Mr. Olver. Three minutes, okay. Well, that is going to 
constrain me greatly.
    Just one other question on AIT. How many different kinds 
of--how many different models are you working with these days; 
how many different models are under testing?
    Secretary Napolitano. You mean in terms of hardware or 
software or both?
    Mr. Olver. Well, maybe I don't know what an AIT is. I am 
referring, and I thought Mr. Dent was referring, to full-body 
scanners.
    Secretary Napolitano. Yes. And there are basically two 
types of the hardware. But we are also now piloting a new type 
of software that gives you basically a stick figure outline of 
an individual, as opposed to an image, and if there is an 
anomaly, identifies that anomaly is for pat-down purposes.

       TRANSPORTATION SECURITY ADMINISTRATION: EMPLOYEE TURNOVER

    Mr. Olver. I was going to say it seems to me there is 
technology that is being developed that is quite noninvasive 
from a privacy point of view. So you seem to be headed toward 
that in any case.
    My impression is, from where I go in and out of my airport, 
is that there is a lot of turnover; people are always changing. 
Is the agency seeing a fair amount of turnover, or are people 
pretty stable in their jobs and just adding more?
    Secretary Napolitano. At the TSA?
    Mr. Olver. Yes.
    Secretary Napolitano. There is some turnover, I would say. 
In part it is because of the size and, you know, just the type 
of workforce there is. It is a very high-stress job. I have 
worked a line for a while myself. It is hard work, and it is 
zero-error work, which adds to the stress. In other words, if 
you are the TSO who permits something to get on a plane, the 
consequences could be dire.
    So we work with our TSOs. We are developing a career path 
for them that makes it a long-term career as opposed to not. 
And we are doing a number of other things to make the workplace 
conditions better for them.
    Mr. Olver. Okay. I want to turn to something in relation to 
immigration. I have quite a few responses in my office that 
look for immigration assistance, and every once in a while I 
sit down with great care and talk with people that seem to me 
to have an egregious error or problem. And I wanted to just 
mention one that happened quite recently of a family that had 
come in under some sort of a waive situation just before 9/11--
I am not sure whether the waive arrangement is still being 
used--but a family, which was a father and mother, man and 
wife, and two children 13 and 7 or 8, something like that.
    This is now 20 years ago. They stayed. They overstayed. And 
the daughter, the older person, by the time she was 19 or 20, 
she had graduated from college--this is Massachusetts--and 
gotten a degree and married, and at which point she was able to 
adjust for her parents, for her parents, who also had been 
under the radar for all of that period of time. But her younger 
brother she couldn't adjust for, she cannot adjust for.
    Now, he was 7 or 8 when he came in probably 15 years ago--I 
guess I exaggerated slightly--and he is about to be deported 
back to someplace in South America. I know where it is, but I 
am not going to mention exactly where. And he speaks English as 
well as we do, had scholarships allowed for college and so 
forth.
    Is there any hope for people like that?
    Mr. Aderholt. The gentleman's time is expired. The 
Secretary has to leave at 5:00, and we have one more question. 
So Mr. Carter.
    Secretary Napolitano. We will get back to you on that 
situation, Representative. I will have somebody come visit with 
you.
    Mr. Olver. I would appreciate it. Thank you.
    [The information follows:]

    USCIS briefed Representative Olver's staff on the specifics of the 
immigration case on March 22, 2011. Representative Olver's staff 
indicated the information was sufficient and that a meeting would not 
be necessary.

               BORDER SECURITY: NATIONAL GUARD ASSISTANCE

    Mr. Carter. Madam Secretary, thank you for waiting here for 
us. I really appreciate that.
    You were the first Governor, I believe, to attempt to use 
our new law that allows you to request the National Guard to be 
deployed in your State, and I believe as a result of that 
request your response from then-Secretary Rumsfeld was that he 
didn't think it was their duty to enforce the borders; it was 
the duty of the Homeland Security Department. You experienced 
that, I believe. And right now my Governor in my State is 
saying that he needs troops on our border for safety and 
security of the citizens of the State of Texas, and I believe 
he does.
    Do you believe we should approve a Governor's request to 
use the National Guard on the border, and do you think that we 
should authorize the Department of Homeland Security to pay for 
National Guard deployments if necessary by the Governors?
    Secretary Napolitano. First of all, the President has put 
1,200-plus National Guards on the border, and they are 
providing very useful counter-drug assistance to the Border 
Patrol. You have also, in this Congress, approved upping the 
personnel in the Border Patrol, and that is the ideal situation 
where you have enough Federal civilian resources. But there can 
be a role for the National Guard. That is why we have some of 
them down there now. And I think that there is going to be a 
continuing discussion between us, the Department of Defense, 
and these committees as to how many, where, and how it should 
be paid for.
    Mr. Carter. And part of that discussion right now is that 
the Department of Defense says they won't pay for it. And so 
then my question is under a circumstance which you and I may 
not be able to imagine, although our Governor believes he needs 
it right now. Should we think about authorizing the payment of 
those guardsmen by our Department?
    Secretary Napolitano. I certainly think that is something 
that, as we move forward, will need to be discussed between the 
legislative and executive branches, yes, sir.
    Mr. Carter. Thank you.
    Mr. Aderholt. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Madam Secretary, again, I apologize for leaving you bereft 
today for an hour, but we appreciate your patience. We have to 
close out now. I will be submitting some questions for the 
record. Some of them commend you for progress you made; for 
example, on the 100 percent screening requirement for cargo in 
the hold of passenger planes. You have actually accelerated the 
timetable for meeting that requirement, and recent incidents 
showed just how important that is. In other areas, for example, 
the future of the CSI, the Container Security Initiative in 
overseas ports, I am going to want to seek some clarification 
as to exactly what the implications of your budget are for the 
future of that and other programs. But we will have to do that 
for the record, and now I just want to thank you for your good 
work, for your presence here today, and again express how much 
we are looking forward to another round of working with you.
    Secretary Napolitano. Thank you, sir.
    Mr. Aderholt. Madam Secretary, let me again echo what 
Ranking Member Price said. The votes are out of our control, as 
you know, so we are at the mercy of the Speaker and when they 
call it. But I do thank you for being here today. And we are 
about to begin working with the Senate to pass a full year CR. 
Without additional information, we have no option but to fully 
fund the DRF. Part of the reason we took the cuts in H.R. 1 was 
due to a lack of a budget amendment or a supplemental.
    But, Madam Secretary, what I would ask you to do is to 
commit to working with my staff on developing a plan that will 
fund the DRF through the end of the year and fund the DRF in 
fiscal year 2012.
    Secretary Napolitano. Yes, sir. And I really appreciate 
your forbearance with my schedule, too. I think we have all 
been juggling like crazy this afternoon. I know I put off one 
thing and so forth. So I really appreciate the consideration 
you and your staff have shown. And obviously and absolutely we 
will work with you and with staff on the DRF and some of these 
other issues that have been raised this afternoon.
    Mr. Aderholt. Sure. Well, thank you very much. We look 
forward to working with you. And again, thank you for your 
attendance this afternoon. The meeting is adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                          Wednesday, March 9, 2011.

                   U.S. CUSTOMS AND BORDER PROTECTION

                                WITNESS

ALAN BERSIN, COMMISSIONER, U.S. CUSTOMS AND BORDER PROTECTION

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. The hearing is called to order.
    This morning we welcome Alan Bersin, Commissioner of U.S. 
Customs and Border Protection, as we consider the President's 
fiscal year 2012 budget request to secure our borders and 
facilitate lawful travel and trade. Commissioner, we thank you 
for being here, and we look forward to hearing your testimony 
this morning.
    CBP has experienced dramatic growth in the past 8 years. 
Today it is the largest agency within the Department of 
Homeland Security, with a budget of $11.8 billion and a 
workforce of nearly 60,000. Given the significance of CBP's 
mission to our Nation's security and prosperity, and 
considering the continuing threats we face, Congress has 
certainly provided robust resources. Going forward, we expect 
to see results for those investments.
    Commissioner, at a time of financial crisis, the American 
people are demanding responsible budgets and accountability for 
every dollar spent. That is why I am pleased to see your budget 
pledges to cut costs and put a priority on frontline 
operations. As I said before, these are also priorities of this 
Subcommittee.
    I am, however, concerned that the President's request for 
CBP includes undefined efficiencies and administrative savings 
that will likely impact operations. For example, the request 
cuts $60 million from air and marine personnel and assets which 
will likely reduce surveillance of the Southwest border. It 
also reduces overtime flexibility for CBP officers by $20 
million that will likely increase wait times at ports of entry. 
I am not convinced that this request stabilizes CBP's budget to 
sustain the workforce, much less support investments in 
technology, infrastructure, and assets needed to meet the 
mission.
    Commissioner, during this time of fiscal crisis, there are 
two things we need: truth in budgeting and clear results. 
First, let's tackle truth in budgeting.
    Those so-called efficiencies and savings I mentioned 
earlier, in addition to program reductions, account for $330 
million. While some proposals represent real savings, the rest 
are merely budget fiction. Operations will suffer and true 
needs will be deferred.
    The President's request also proposed a hypothetical 
increase to customs user fees of $55 million for fiscal year 
2012. Authorizing legislation would be needed to require 
passengers entering the U.S. from Canada and Mexico to pay the 
fee. If not enacted, history tells us these changes are 
difficult to enact, CBP will likely expect this Subcommittee to 
fill that $55 million hole.
    The second thing we need is results, a clear understanding 
of how your request supports operational needs. The United 
States invested billions in Southwest border operations in 
recent years across law enforcement agencies but, in 
particular, in CBP. We are scheduled to hear from Field 
Operations and Border Patrol next week on detailed operations; 
but today, Commissioner, I look forward to having a clear 
understanding of how you will define operational control of the 
border and your plan to get there.
    Equally significant, this Subcommittee is particularly 
pleased to have the esteemed Mr. Price. He has invested in 
CBP's strategy to push out the border, and I would like to hear 
how this request supports CBP's overseas operations to secure 
trade and travel to the United States.
    The American public demands straightforward answers to our 
border security efforts. Truth in budgeting and transparency 
with respect to operational needs are essential in this fiscal 
climate. I appreciate you appearing before us today, before 
this Subcommittee, and thank you in advance for your candor in 
helping us to understand CBP's budget request for fiscal year 
2012.
    At this point, I would like to recognize the Subcommittee's 
distinguished Ranking Member, the former Chairman of this 
Committee, Mr. Price, for his opening remarks.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                Opening Statement: Ranking Member Price

    Mr. Price. Thank you, Mr. Chairman. And I will be very 
brief because I know with the joint session we are going to be 
pressed for time. So let me just welcome you, Commissioner, and 
make a couple of brief comments.
    Over the past few years, the size and assets of CBP have 
grown substantially. Since 2006, just five years ago, the 
number of Border Patrol agents who patrol the Mexican and 
Canadian borders and the coastal waters surrounding Florida and 
Puerto Rico has grown by 70 percent; from 12,349 to 21,370 
Border Patrol agents funded in 2012.
    Meanwhile, the number of CBP officers has grown by 18 
percent to more than 21,186 officers funded in 2012, largely to 
enhance Southwest Border port-of-entry operations. Your 2012 
budget request reflects your heavy reliance on people for all 
of our activities, with over two-thirds of the request funding 
salaries and benefits alone.
    From 2010 to 2012, salaries and benefits grew by $1.1 
billion. This leaves very few dollars to invest in new 
technologies and tools for your personnel and to conduct 
maintenance on your facilities. Moreover, during this time of 
fiscal restraint, you most likely will be asked to do more with 
less. We need to make sure that in doing so, critical 
operations are not negatively affected.
    Commissioner, your agency carries on one of the core 
functions of DHS: keeping dangerous goods and people out of the 
country while facilitating lawful cross-border movement. 
Accomplishing that task in an ever-changing threat environment 
requires an agency that is flexible and forward leaning, making 
good use of intelligence, preferably intercepting threats 
before they reach our borders.
    A good example of that approach, I believe, is the 
Immigration Advisory Program, which places CBP officers in 
foreign airports to stop potential terrorists from boarding 
flights to the U.S. I commend you on the progress of that 
initiative, and am pleased to note the expansion of this 
program in your budget request, along with additional funds to 
improve our targeting capabilities.
    Recognizing the staffing needs at our ports of entry, I am 
also glad you proposed 300 new CBP officers and new canine 
teams. And I want to call attention to your efforts in the 
critically important area of officer integrity. Specifically, 
you propose $26 million to enhance CBP's polygraph program and 
to conduct timely background investigations.
    I do have some concerns about what is missing from this 
request. There is no new funding for air cargo security, even 
though CBP informally asked this Subcommittee to provide 
additional resources after the attempted air cargo bombing plot 
out of Yemen last fall. The budget substantially reduces 
funding to your facilities, delaying maintenance and repairs 
and alterations. It reduces air and marine programs, which your 
own budget brief says, ``will reduce the ability to safely and 
effectively transport personnel and equipment in support of 
border security missions.'' And, finally, the budget contains 
changes in maritime container security efforts that seem to be 
at odds with what both the Secretary and CBP have been 
proposing for the last few years. I look forward to discussing 
each of these in detail during the hearing today.
    Commissioner, we hold the men and women of CBP in the 
highest regard. We place great value in the work they and you 
do, day in and day out. Many operate in many dangerous areas, 
and they put their lives on the line to protect us. I know we 
are going to discuss this in more detail next week at our 
hearing on Southwest border violence.
    As we begin this hearing to more closely examine your 2012 
budget, it is important to note that no program or account will 
be off limits to scrutiny. Our obligation is to take a balanced 
realistic approach, to weigh risks carefully, and to make 
prudent investments. Commissioner, I have no doubt that you 
share this point of view. I look forward to working with you 
again this year. Thank you.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Mr. Price.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Opening Statement: Commissioner Bersin

    Mr. Aderholt. Again, Commissioner, we thank you for being 
here this morning and for taking time to address the 
Subcommittee. And we at this time would like to hear your 
testimony before the Subcommittee.
    Mr. Bersin. Good morning. And thank you, Mr. Chairman, 
Ranking Member Price, Representative Lowey. CBP [U.S. Customs 
and Border Protection], all of its nearly 60,000 employees, 
join me in thanking this Committee and the Congress generally 
for the support that you have provided, providing the resources 
and the funding necessary to accomplish the mission sets that 
the Nation has assigned CBP.
    I recognize, Mr. Chairman, that time is limited today, so I 
will shorten an already brief statement so that we can get to 
the questions and answers. But I do want to reiterate and 
emphasize the high points.
    CBP is charged with keeping dangerous people and dangerous 
things out of the American Homeland, away from American 
communities and families. We do that in terms of two direct 
approaches.
    First, we are charged with protecting the land borders of 
the United States. This encompasses the Southwest border, which 
has garnered most of the attention in the last years because of 
the activities there and in Mexico. But it also encompasses the 
Canadian border, more than 3,900 miles that are on the Northern 
border from Maine to Seattle and the State of Washington. It 
also encompasses, in concert with the United States Coast 
Guard, responsibilities on the littorals, the maritime 
approaches off the coasts of the United States. The resources 
that this Committee has provided have had an impact and will 
continue to have an impact on all of those mission sets having 
to do with the border.
    We also look at the border not simply as a boundary between 
the United States and Mexico and the United States and Canada, 
but we also look at it as securing the flow of goods and people 
toward the United States, and the twin dimensions to this 
issue, as the Ranking Member and the Chairman both indicated. 
We have a responsibility to secure the flows to be sure that 
dangerous people and dangerous things are identified as far 
away from the physical borders as possible and as early in time 
as possible. That is why we have the international footprint at 
CBP.
    We also have an enormous responsibility with regard to the 
expediting of lawful trade and traffic. And the approach that 
CBP takes to this task is by risk management, by assessing 
risks and being able to distinguish between trusted travelers, 
trusted shippers, and those about whom or about which we have 
adverse information or about which we lack sufficient 
information to make a judgment as to how we ought to expedite 
their passage across our physical borders.
    These two mission sets--securing the land border, the 
Southwest border, the Northern border and the littorals, and 
also securing the flow of goods and people through programs 
such as the Immigration Advisory Program or the Container 
Security Initiative--are the way in which we accomplish our 
tasks.
    The 2012 budget that has been proposed by the 
Administration is under consideration by this Committee and the 
Congress provides us with the resources that we need to do this 
job. It is not a perfect budget. It never is. But I hope that, 
in discussions with this Committee and generally between the 
administration and the Congress, we can sharpen the budget, 
fill the gaps that are perceived to exist, and continue the 
progress that we have made both in protecting the land borders, 
protecting the aviation borders, protecting the maritime 
approaches, and also securing flows of people and goods so that 
we can continue to partner with the private sector to process 
$2 trillion worth of imports that come into the United States 
each year, and we can also expedite the movement of $1.8 
trillion in exports that leave this country each year.
    With regard to the challenges, rather than go into them as 
I thought I originally would, I think the Ranking Member and 
the Chairman have each raised the major challenges that we face 
with regard to maintaining the personnel, also maintaining the 
ability to make efficiencies, show efficiencies in a time of 
constrained budget, and yet keep the productivity of our men 
and women of CBP high and growing, and also make their 
activities more efficient and effective at the same time.
    With that, Mr. Chairman, and in the interests of beginning 
the dialogue so critical to this enterprise, let me again thank 
you on behalf of the 58,000 men and women of CBP for the 
support that this Committee has always shown our efforts. Thank 
you, Sir.
    Mr. Aderholt. Thank you, Commissioner. And we will enter 
your full statement into the record, and we thank you for your 
opening comments.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
           BORDER SECURITY: UNITED STATES-MEXICO COOPERATION

    Mr. Aderholt. The first issue that I would like to bring up 
is a clear goal for border security. The United States 
Government has made significant investments in Mexico directly 
and in United States law enforcement agencies, in particular 
the Department of Homeland Security, to counter Mexican drug 
trafficking organizations and to assist the Calderon 
administration. While it is clear that these efforts are 
disrupting cartel activity, it remains to be seen what the end 
goal actually is and how we expect to get there, especially as 
the Calderon administration draws to an end in 2012.
    How would you describe our progress collectively, United 
States and Mexican efforts, to undermine the drug trafficking 
organizations, and what evidence do we have of the impact on 
the cartels?
    Mr. Bersin. Mr. Chairman, an issue critical to our border 
security and also to our national security. The enterprise of 
cooperation with Mexico is a work in process; in fact, we have 
started down a path that is truly historical. The decision in 
2006 of President Calderon to take on the organized crime 
elements that had so infiltrated both Mexican politics and 
Mexican society, that were having such a detrimental impact on 
our border and on our country, was truly a turning point in 
Mexican history and in the history of our two countries, 
particularly at the United States-Mexican border. That effort 
has led to the kind of violence that we have seen in Mexico 
that has resulted in the deaths of more than 35,000 Mexicans 
since 2006.
    Recognizing how critical Mexican national security is to 
our own border security and, I would argue, our national 
security, the Obama administration, continuing the work of 
Merida, has actually taken the level of collaboration and 
cooperation to a new level and a new status. This is a work in 
process, but I believe that we have achieved something that is 
critical as we look forward.
    I believe, regardless of changes that might take place in 
the leadership of the United States or Mexico, that we have 
with our neighbor to the south for the first time, really, 
since the 19th century treaty that ended the U.S.-Mexican War, 
reached a level of collaboration and cooperation that will 
never, ever go back to where it was, where we had erect 
borders, but not violent borders, but never terribly 
cooperative borders between the United States and Mexico.
    The key to this has been the understanding between 
President Obama and President Calderon that in fact the issue 
of guns going south and cash going south and drugs coming north 
is not the occasion for finger-pointing, which it was for so 
much of our bilateral history: Mexicans blaming us for their 
problem of violent crime due to the consumption of drugs in the 
United States; and Mexicans blaming the United States for the 
passage of weapons into Mexico, without accepting the notion 
that there was a Mafia of frightening proportion growing in 
their country. That actually, thankfully, is a matter of the 
past.
    For the first time in our history, instead of pointing 
fingers at one another, the United States and Mexico recognize 
drugs coming north, guns and cash going south, as being part of 
a common problem for which we have shared responsibility. That 
acceptance, Mr. Chairman, has permitted us for the first time 
to not only design common solutions but to be well along the 
path of implementing them. It is a major change for the good.
    Mr. Aderholt. Just to follow up on that. You mentioned it 
has changed historically, the finger-pointing. As the 
Presidential election year approaches, 2011 is a critical year. 
President Calderon is under increasing pressure internally, and 
we have seen, him publicly lashing out at the United States, 
calling cooperation from the United States ``notoriously 
insufficient'' and saying, ``How can Americans cooperate? By 
reducing drug use, which they haven't done. And the flow of 
weapons hasn't slowed, it has increased.''
    While the tone was better in the Calderon meetings with the 
President last week, there is still that concern. Let me just 
follow with that and just your take on that.
    Mr. Bersin. Mr. Chairman, I think that actually that is an 
index of the relationship that we now have; that in fact, when 
you are engaged in the kind of partnership that we now have, 
there can be candid, even publicly candid remarks about the 
shortcomings that are perceived in the performance of the other 
partner.
    So, for example, yes, the fact is that President Calderon 
underlines, with regard to drug trafficking, the critical role 
played by drug consumption in this country. He also outlines, 
with regard to illegal immigration, the lack of a legitimate 
labor market between the United States and Mexico, and the 
desire on the part of some Americans for both secure borders 
and cheap labor. I look at that as the candor and the frank 
discussion that will permit us to start to address those issues 
together.
    So, for example, we point out to the Mexicans, in ways that 
were unsayable even 3 or 4 years ago, that they have a major 
problem of corruption in their law enforcement, that their 
state and local law enforcement and much of their judiciary, 
unfortunately, remains plagued by problems of corruption. Those 
are the kinds of public statements and acknowledgements that I 
think reflect the deeper partnership and the greater potential 
for cooperation than has ever existed before.
    But I take your point. There are candid exchanges between 
partners that in fact our people, both in Mexico and the United 
States, need to hear and increasingly understand.

                  BORDER SECURITY: ILLEGAL IMMIGRATION

    Mr. Aderholt. You have often stated in your public comments 
that the border is as secure as it has ever been. But this 
assertion doesn't tell us how close we are to actually securing 
operational control of the border. So that begs the question, 
given the billions that we have invested into the border, what 
is your goal for border security, and how close are we to 
achieving it?
    Mr. Bersin. Mr. Chairman, a critical question and well 
asked and reasonably asked, ``What does border security mean?'' 
So let me begin perhaps by describing what it can and cannot 
mean.
    If we understand border security to be the absence of any 
illegal migration at all across the United States borders or 
the absence of any drug smuggling at all, then in fact we have 
set a goal that is impracticable and not possible in terms of 
an absolute sealing of the American border. That would be an 
issue of resources and an issue of actually having to correct 
those problems that, as I indicated in response to your 
previous question, have led to an understanding that the 
consumption of drugs in this country is as much a part of the 
problem as the smuggling of drugs by organized criminals in 
Mexico across the border. We need to work on that. Under ONDCP 
[the Office of National Drug Control Policy], we are making 
very serious efforts of curtailing drug use and seeing some 
progress.
    The same thing goes with regard to the labor market. As 
long as the magnet, the job magnet exists, we will see this 
flow. But, Mr. Chairman, security means that these are not 
flows that disrupt American family life and community life 
either in border communities or in the interior of our country. 
And there we need to basically take the position that if you 
try to cross into our country illegally, either to smuggle 
drugs or to come here to work illegally, you will be detected 
and you will be arrested. And that is the sense in which we 
approach our task at CBP.
    Mr. Chairman, I am pleased to report to you that compared 
to certainly five years ago, certainly 10 years ago, and I know 
myself, having started with the border first, as the United 
States Attorney in the Southern District of California 15 years 
ago, that the border is actually more secure than it has ever 
been in terms of the ability to detect and apprehend those who 
come into the country illegally.
    Having said that, we have considerable work to do, 
particularly in the Tucson Sector. That sector from Hermosilla, 
Mexico, in Sonora, to Nogales, Sonora, to Tucson, to Phoenix, 
half of the illegal immigration in the United States comes 
through that corridor. Half of the marijuana smuggling into the 
United States from Mexico takes place through that corridor.
    And that is why Secretary Napolitano, beginning in March 
2009, two years ago, began the greatest buildup of resources in 
Arizona that we have ever seen. This Committee has facilitated 
the growth of the Border Patrol, as indicated by the Ranking 
Member, such that by the end of fiscal year 2012, we will have 
21,370 Border Patrol agents. Sir, I remember in 1993, when I 
first became involved with the border, we had 2,800 Border 
Patrol agents in the entire country. We now have nearly 10 
times that many. They are being used to good effect, and in no 
place better than in the Tucson Sector where we have more than 
6,000 people between the ports of entry CBP and at the ports of 
entry. And they are showing results in their work.
    What does bringing that border under control and that 
sector under control mean? It means reducing the flow of 
illegal traffic into the United States from Mexico to a point 
that both assures public safety and is perceived by the people 
who live on the border and the people who live in Arizona as 
being safe and secure.
    So I can tell you, having lived and worked there myself, 
and my family still lives on the border between Baja 
California, Mexico, and California. In San Diego, in 1994, when 
Proposition 187 was passed by the people of California, a 
proposition that is reminiscent of Arizona's bill 1070 of this 
last year in the context of Arizona politics, 565,000 illegal 
immigrants, illegal aliens, crossed over from Mexico and were 
arrested on the San Diego-Tijuana border. And at least twice 
that many, Mr. Chairman, got by the Border Patrol and made 
their way up to Los Angeles.
    Today, the situation is completely different in terms of 
the resources Congress has provided. We have more than 3,000 
Border Patrol agents in the San Diego Sector. We have a 
complete set of infrastructure in terms of fencing and 
pedestrian fencing and vehicle fencing. We have technology that 
permits us to detect the very large majority, I estimate 90 
percent, of the people who are trying to cross illegally into 
the United States in that sector. But what that means, Mr. 
Chairman, is that when we say 58,000 as opposed to 560,000 
people were arrested last year in San Diego, I can tell you 
that my friends and neighbors in San Diego will tell you this 
border is not out of control. San Diego is one of the safest 10 
cities in the United States, and there are three other border 
cities that are among the 10 safest cities in the United 
States: El Paso, Texas; Austin, Texas; and Phoenix, Arizona.
    So, with regard to this motion of what will it take to 
complete the job, I would say respectfully, Mr. Chairman, that 
until we have the kind of legitimate labor market between the 
United States and Mexico, and until we reduce the level of drug 
demand in the United States, we are going to continue to have 
attempted crossings on our border. The issue is, how many? And 
how many do we arrest after detecting them? The situation there 
is considerably improved, and it will be improved in Arizona as 
a result of Secretary Napolitano's initiative and, frankly, the 
Congress' Southwest border supplemental bill of last spring.
    Mr. Aderholt. Thank you, Commissioner.
    Let me turn now to Mr. Price.

               AIR CARGO SECURITY: EFFORTS TO STRENGTHEN

    Mr. Price. Thank you, Mr. Chairman.
    Commissioner, I would like you to address air cargo 
security, first in respect to the capacities that you are 
developing, and secondly, some of the budget implications of 
those efforts.
    Prior to the attempted air cargo bombing plot out of Yemen 
last fall, CBP was receiving international air cargo manifests 
four hours before cargo arrival in the United States; that is, 
after the plane was airborne. In response to the October 29, 
2010, mailing of improvised explosive devices from Yemen, the 
National Targeting Center has been working with air carriers so 
they can analyze cargo manifests before flights take off.
    In December, CBP began piloting this type of screening with 
the Big Four all-cargo carriers. Two of these pilot efforts 
have been completed, two others are either ongoing or are 
starting shortly. I know you call these pilots, but I don't 
believe there are any plans to turn them off. Maybe some 
analysis will follow, but this is going to be, as we 
understand, a permanent improvement of capacity.
    So I wonder, first, if you could highlight what efforts 
CBP, in conjunction with the carriers, has undertaken to 
strengthen your air cargo security before it arrives in the 
United States, and what you believe the next steps are. And 
then, secondly, I want to ask you about the budget implications 
of all this.
    I was somewhat surprised that the 2012 budget didn't 
include any additional funding for better targeting of cargo. 
Last November, CBP told the Committee that it needed up to $80 
million for these specific efforts. In December, in our 
consultations, this figure was revised twice, to $50 million 
and then to $17.3 million for the ``highest needs.'' The 
highest needs include 40 new air cargo targeting positions 
funded to upgrade targeting infrastructure and funding to 
develop new targeting rules. Since final funding for 2011 
unfortunately has not been resolved, we were unable to provide 
these resources; however, we did expect to see something in the 
2012 budget. It is not there.
    Last December, CBP told the Subcommittee it would expand 
its review of cargo transportation documents, known as bills of 
lading, to countries surrounding Yemen. That required 
additional staff, required additional infrastructure 
improvements to provide adequate bandwidth and hardware to 
support the workload, and additional screening technology. Has 
something changed? Or what has changed over the last few months 
so that you didn't include these needs in the 2012 request? And 
I guess the obvious question is, are you now planning to fund 
these activities from base resources?
    Mr. Bersin. Ranking Member Price, thank you for that 
question that focuses on that dimension of our mission that is 
securing goods so that when they arrive at the physical ports 
of entry, we have done everything we need to do to identify, as 
best we can, dangerous cargo. And in fact, the Yemen cargo 
plot, with regard to packages and freight, led to the same kind 
of changes that we saw a year earlier with regard to the 
processing of passengers as a result of the Abdul Muttalib 
attempt to blow up a Northwest airliner over Detroit. So let me 
indicate what we have done, and then provide a very direct 
response to your question about how will this be funded.
    Two major partnerships characterized our response. And 
remember, as you indicated, what happened in the Yemen cargo 
plot was that we received intelligence, our government did, 
from the Saudi intelligence that indicated there were two 
packages that were on their way to the United States that were 
intended to be detonated in the cargo plane over Chicago. So 
the question then was, how do we locate those packages? And I 
think one of the changes in the global supply chain was we did 
identify, out of this mass of tens of millions of packages and 
cargos involved in the international trade. We were in 
relatively short order, working together with our partners 
abroad, able to pluck out those two packages and to neutralize 
them so they did not do damage to the American Homeland.
    As we analyzed the situation, though, we were able then to 
identify very quickly where the other packages that had come in 
the preceding days from Yemen were. But what we also noticed 
was that we needed, as we did in the passenger context, to be 
doing much more work away from the American Homeland and early 
in time. And that is what led to the pilot projects that you 
indicated.
    Three critical partnerships have characterized the work.
    The first is, as I suggested, the partnership with foreign 
customs and police authorities, which needs to be very close 
and is increasingly close.
    The second has to do with the partnership within DHS 
between the Transportation Security Administration (TSA), 
charged with cargo security, and CBP. And the linking of the 
work of CBP and TSA on this has been extraordinary. And I know 
that government agencies always talk about the extent to which 
they cooperate, but I can tell you, having been in the Federal 
Government, this is cooperation with real results that we see 
exemplified and illustrated in the way in which our Nation has 
responded to the cargo plot from Yemen.
    The third partnership and key to this is the way in which 
we have collaborated with the private sector. From day one, we 
began working with the express cargo carriers, with the 
commercial airlines, and with the large cargo operators to 
begin to co-create the solution.
    So what does the solution look like? And, frankly, I would 
say parenthetically that the way in which we have worked with 
the private sector contrasts with what I believe the Ranking 
Member and Members of the Subcommittee are familiar with, which 
is the contentious manner in which we began to deal with 
maritime security in the wake of 2001. That situation has 
vastly improved, but it has taken a long time for those engaged 
in maritime trade to look at the requirements that we imposed 
on them top down, in part through Congress imposing 
requirements on DHS. We basically mandated a series of changes 
to require advance information and a whole variety of pre-
departure and pre-arrival changes. We took a different 
approach, frankly, Mr. Price, to this situation, air cargo.
    From day one, Secretary Napolitano convened working groups 
involving the private sector and TSA and CBP to address the 
issue. And within a month, we began what you referred to as 
pilot projects. And they basically have two dimensions to them. 
We get advanced information. Right now, the law provides that 
when cargo is coming toward the United States, it must be given 
to CBP four hours before arrival. It must be entered into our 
system. Or if the place of disembarkation is fewer than four 
hours from our homeland, then it is entered into the system 
upon wheels-up of the cargo plane or the commercial plane 
carrying cargo.
    What the pilot project basically does is it articulates and 
starts to implement a new grand bargain between governmental 
authorities and the private sector. Basically, the grand 
bargain is if you give us information early in advance of the 
departure, we will use the National Targeting Center to analyze 
the information you give us in terms of manifest data, and we 
will make a judgment about whether or not we need to screen and 
look at it and in which way we need to look and screen the 
cargo much earlier.
    That has led express cargo--and right now the pilot is 
between the United States Government, DHS, and the express 
carriers, FedEx, UPS, I believe will be extended to DHL soon, 
and to TNT in the not-too-distant future. And basically what we 
see from UPS is that we are getting the information sometimes 
24 hours earlier before departure, sometimes even 36 hours. And 
we are able to make this decision, working together: Do we 
screen it? Do we isolate it? Do we do it abroad? Do we do it en 
route? Or do we do it when it arrives at the physical 
boundaries of the United States?
    That is the nature of the bargain. It is an extraordinary 
collaboration, and will be extended over the next six months to 
commercial airlines and the large cargo operators.
    So then, Mr. Price, you say, so why haven't you asked for 
additional funding to support this? And the answer is that we 
have asked for additional funding, as you indicated in your 
question. We have asked for additional personnel at the 
National Targeting Center. Now, we have actually asked for, I 
believe, 33 additional targeters that will work in Herndon and 
be able to analyze that manifest data.
    And, Sir, I indicate to you, as we have with the 
Immigration Advisory Program, we will be coming back to the 
Congress when we have perfected this, when we have gotten to 
the point where we can say, as a result of the experience we 
have had, these are the additional measures that we need to 
take. And I think you have understood that we are not bashful 
about asking for resources.
    But taking the Chairman's caution into account, in the 
environment in which we are operating, the Secretary is 
determined that we need to perfect these protocols. And we are 
able to do that within our existing resource base, together 
with the additional resources we asked for at the National 
Targeting Center.
    Mr. Price. Mr. Chairman, I know my time is expiring. Just 
one clarification, though. I thought these additional personnel 
that you referred to were aimed at a passenger screening 
operation.
    Mr. Bersin. The National Targeting Center--I will correct 
the record if I misspeak, but I believe these are going to be 
National Targeting Center for Cargo. We have the NTC-P, 
National Targeting Center for Passengers in Reston, Virginia, 
and that is the program that works with the Immigration 
Advisory Program. But I believe that these were destined, and 
we intend to allocate them to the NTC-P.
    Clerk's Note.--The Commissioner confirmed that the FY12 
request was for NTC-P analysts, not cargo.
    Mr. Price. That is not the information that we have. But if 
you can get this straight for the record. And while you are at 
it, please provide us with whatever accounting you can of where 
in the budget these items that we had earlier been briefed on 
and had anticipated might be embedded; and to the extent that 
they are not in the budget, how you are making up the 
difference. That would be very helpful to us as we try to 
support this program fully. You understand, we want this to 
happen. We want to make sure that we understand the full budget 
implications of this capacity building, though.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Bersin. Yes, sir.
    Mr. Price. Thank you, sir.
    Mr. Aderholt. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. And good morning. A 
couple things following up on Mr. Price's questions.
    It is my understanding that 100 percent of outbound 
commercial aircraft carrying cargo is now screened. Is that 
correct?
    Mr. Bersin. No. I don't believe that 100 percent of the 
outbound cargo is----
    Mr. Dent. On passenger planes.
    Mr. Bersin. This may be a TSA function. I know that CBP is 
not screening 100 percent of outbound.
    Mr. Dent. On the issue of the inbound, you just referred to 
the Yemen situation. Even if we were to screen 100 percent of 
all inbound cargo coming on non-passenger aircraft, how 
confident are you that we are going to detect problematic 
material, given what you know about the situation?
    Mr. Bersin. Again, Mr. Dent, with regard to inbound, on 
commercial planes coming to the United States, there is 100 
percent screening by TSA-certified screeners or by the TSA 
itself of inbound cargo. And I believe with regard to that 
extent, we do have--we can always improve our screening 
capacity. We need to improve our protection capacity in terms 
of the technology. But that situation is considerably improved 
from where it was even a few short years ago.
    Mr. Dent. It is my understanding on the inbound, coming 
from overseas in, we are still not at 100 percent. Outbound, we 
were. You met the mandate.
    Mr. Bersin. I will correct the record again. This is a TSA 
function.
    Mr. Dent. Understood.
    Mr. Bersin. I will correct the record if I have misspoken.

                BORDER SECURITY: USE OF CIVIL AIR PATROL

    Mr. Dent. And one thing, too. I wanted to follow up on 
Civil Air Patrol issues. For the past several Congresses, I 
have been advocating the use of the Civil Air Patrol on the 
border, the Southwest border. You have a shortage of assets 
down there. It seems that if the Civil Air Patrol is willing to 
help, they have been effective in the past helping us with 
various security missions. What relationship does CBP currently 
have with Civil Air Patrol?
    Mr. Bersin. Mr. Dent, I know from the days in which I was 
the U.S. Attorney that the Civil Air Patrol played a very 
important role in assisting the Border Patrol in those years to 
patrol. Because of the increase provided by Congress in the air 
and marine assets of the CBP, we rely hardly at all now on the 
Civil Air Patrol. And I do know of your interest. We do not at 
this point, except in very spotty cases, regularly use them, in 
part because the air and marine assets that have been provided 
by the Congress and are at work, for example, in Arizona, are 
on the order of 10 times what they were years ago. But I----
    Mr. Dent. Are you amenable to establishing some type of a 
working relationship with the Civil Air Patrol?
    Mr. Bersin. Absolutely. Absolutely. Partnership with Civil 
Air Patrol as with State, local, and tribal law enforcement 
authorities is critical. Yes, sir.

                        BORDER SECURITY: SBINET

    Mr. Dent. I would love to follow up with you on that 
further. I think we could use them and it would be a cost-
effective way for us to develop some more effective aviation 
assets.
    And on SBInet, the Secretary announced I think on January 
14, that they ended the SBInet program; yet it has endorsed the 
integrated fixed towers that are at the heart of the SBInet and 
indicated the Department intended to buy 52 more integrated 
fixed towers for Arizona. That is on top of the 15 that I think 
are already out there. So these additional towers are for some 
of the most problematic areas, as you know. But you postponed 
the purchase of these towers until fiscal year 2012, and 
delivery isn't expected I think until sometime in early 2013. 
Why aren't we moving aggressively in building on those towers?
    Mr. Bersin. Mr. Dent, you have correctly described the 
situation. The large-scale integration and the virtual fence 
dimensions of SBInet were ended by the Secretary, and I think 
to the general approval of Members of Congress on both sides of 
the aisle. But where the Boeing-developed technology, so-called 
block technology for the Ajo-1 technology, which integrates 
video and radar works, is in the flat terrain, and there will 
be need for it. Where there are canyons and mountains, that 
technology is not very useful and the Secretary has directed 
that we fill in the gaps in those areas with Mobile 
Surveillance Systems and Remote Video Systems. And our agents 
confirm that this is the best technique, together with aviation 
ISR [Intelligence, Surveillance, and Reconnaissance], the 
ability to integrate from surveillance from air, aviation 
platforms.
    The reason, frankly, for the delay--and I believe we 
started purchasing in 2012 and continue to purchase in 2012 and 
2013--is that we need to fill in the gaps. We have in Arizona, 
which is our area of greatest priority on the border, we have 
the towers in place on the flat areas. But we need to fill them 
in with the technology better suited for the canyons and the 
mountains.
    But you are right; we want more of those towers to use in 
other places where the terrain makes them very useful. The 
priority is one reason there is a delay until 2012. The second 
is simply get the competitive bidding that will be required to 
give companies other than Boeing an opportunity to compete for 
this contract and to provide the fixed towers.
    So we think, both as a matter of tactics but also good and 
efficient business sense, that schedule will not do us harm 
from a security perspective, and will get us a better product 
in due course.
    Mr. Aderholt. Mrs. Lowey.

               AIR CARGO SECURITY: 100 PERCENT SCREENING

    Mrs. Lowey. Thank you, Mr. Chairman.
    And welcome. And I just want to say, Commissioner Bersin, 
we are very fortunate to have a person of your wisdom, 
experience, and caliber in this position, and I thank you very 
much.
    And if you could just clarify in writing for the record, it 
is my understanding that the 100 percent screening of cargo on 
passenger airlines won't be completed until the end of 2011. I 
don't think it can be done soon enough. I think it is urgent. 
And I would like you to clarify that for us because I would 
like to know why. And also--why it is not completed.
    Mrs. Lowey. And I would also like to know if there are some 
nations that are not being cooperative as we seek to implement 
better screening procedures abroad, and what can we do about 
it? Perhaps the first one you can submit to us in writing.
    But the second, if you are aware of certain nations that 
have not been cooperative, I would like to know about it.
    Mr. Bersin. Yes, with regard to providing information on 
both.
    As you know, the legislation provides the extension, 
although the deadline is coming up and I believe that the 
Secretary, if she hasn't already, will be indicating the 
further extension on the 100 percent scanning. And with regard 
to----
    Mrs. Lowey. I just happen to think on that issue it is 
unacceptable. So I just want to know what you need, how much 
money, how many people to get it done now.
    Mr. Bersin. I understand. And then with regard to the 
information on countries that have not been cooperative, no one 
comes to mind. But I would need to consult with Administrator 
Pistole with regard to the cargo screening from abroad. And I 
will do that and supplement the record, if he so advises.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
         PORTS OF ENTRY: CUSTOMS AND BORDER PROTECTION OFFICERS

    Mrs. Lowey. Thank you.
    On another issue. I have recently heard reports about 
staffing issues at Kennedy Airport, including that one quarter 
of all Customs and Border Patrol officers (CBPOs) are handling 
basic immigration work rather than searching cargo for weapons 
or drugs. Perhaps more alarmingly, I have been told that 18 
flights a day are arriving from known high-risk narcotic-
producing nations without searches by CBPOs due to staffing 
shortages.
    So I would like to know, number one, what steps are you 
taking to ensure CBP is in fact searching cargo at Kennedy 
Airport rather than performing administrative tasks? And, 
secondly, what additional resources do you need from Congress 
to achieve this mission?
    Mr. Bersin. I was at Kennedy Airport on Friday, Thursday 
and Friday of last week. We are constantly looking at the 
staffing issues and also the allocation of duties. So at 
Kennedy Airport, which has more CBPOs, Customs and Border 
Protection officers, than any other airport because of the size 
and the scope of its operations, we have just under 1,800 now, 
with a staffing model that actually allocates both to the 
processing of people, which we have to do to prevent dangerous 
people from coming into the United States. But also 
increasingly, we check obviously on screening of freight and 
cargo coming into the United States, and Kennedy leads the way 
in terms of outbound checks. We have more outbound checks led 
by an extraordinarily experienced and good group of officers.
    But I take your point that we always need to look at how do 
we allocate scarce resources and when do we need more resources 
for any particular function?
    I believe that we can improve the situation at Kennedy, but 
I am satisfied that the leadership and this new port director 
at Kennedy, who I hope you will have an opportunity to meet: 
Mr. Brian Humphrey, who was at O'Hare Airport, now in charge of 
Kennedy Airport under Bob Perez's leadership at the district. 
And I will make him aware of your concerns and confirm that he 
is always looking at how best to allocate the resources among 
the functions that we have.

                   BORDER SECURITY: WEAPONS SMUGGLING

    Mrs. Lowey. I am not questioning anyone's ability. I am 
just saying that I think it is important that we get the job 
done. If you need more assistance, you should let us know.
    In that regard, I have been to the San Diego entryway, and 
I have spent hours there. And to me it looks like a needle in a 
haystack. So I applaud you. I don't know how you do that work.
    I also want to say, you talked before about the issues 
involving our government and the Mexican Government. I have met 
with Calderon, I have been there, I have talked with him. And I 
think this has reached proportions that are just 
extraordinarily dangerous. We know of the 35,000 lives that 
have been lost there. And I personally think it is not enough 
to say guns are going there and drugs are going there. I think 
we have to push for an assault weapons ban, and I think we have 
to do something about controlling our use of drugs here in the 
United States of America.
    What to do about the infiltration of the military, 
infiltration of the security force with the cartels, because 
the cartels pay more than the government, and the corruption is 
another whole story for another hearing, Mr. Chairman. But I 
appreciate your mentioning those issues, and I think we just 
have to do something about it.
    So thank you again for appearing before us. And I think my 
time is up, so I will save my other question.
    Mr. Aderholt. We would like to go now to Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    And, Commissioner, thank you for being here. Thank you for 
all the people in your Department that are doing very important 
work to protect our Nation. Texans feel it probably more, or as 
much--I would argue ``more'' than most in this country--as far 
as what you are doing on our borders. We are very appreciative 
of it.
    My friend just raised the issue of the question that seems 
to come up every time we address the border. We certainly are 
aware of the violence coming from the south. And the question 
then comes up, where do the weapons come from? And it seems to 
be the finger gets pointed at the United States, that we are 
allowing weapons to be smuggled into Mexico.
    I don't know whether that is true or not. We assumed it was 
true. We had this discussion in the last Congress. We thought 
we had put adequate resources on the border to be able to 
inspect cargos going south, but there are at least accusations 
that we are failing in that inspection.
    First and foremost, I want to make sure that is actually 
true, and to learn something about the interdiction that you 
may have had on weapons going south. The reason I question this 
is because AK-47s are not American-manufactured weapons; they 
are European-manufactured weapons, and that is what I see the 
bad guys carrying. But maybe we are importing them into the 
United States and then shipping them down there, I don't know.
    I think that it is important that we do interdict weapons 
flowing south if they are coming through the United States. If 
we have a fault in this violence on the border, we need to 
correct that fault. My Governor in my State has said he is 
perfectly willing to assist with the resources of Texas law 
enforcement. Would that be of assistance to you if Texas law 
enforcement--and law enforcement of other States, was willing 
to assist in the interdiction of weapons going south?
    Second, do you have any weapons coming in from other 
sources besides the United States of America?
    Mr. Bersin. With regard to the source of weapons flow into 
Mexico, I think we have to acknowledge that many of the weapons 
do come from the United States. I think that has been 
established by the work of ICE [U.S. Immigration and Customs 
Enforcement] and ATF [Bureau of Alcohol, Tobacco, Firearms, and 
Explosives] as they have traced weapons that are seized in 
Mexico and traced back to sales in the United States. So I 
think we should acknowledge that, because it is a fact.
    I think the extent of it, though, is not certain. You hear 
charges from certain quarters in Mexico that it is 98 percent. 
Others say 90 percent. Others say it is 80 percent. I think we 
should just acknowledge that it is an issue and we need to deal 
with it in terms of a new situation.
    At the same time, there is no question in my mind that 
weapons are being smuggled into Mexico from the southern border 
as well, through Central America, particularly some of the 
heavier weapons that are there.
    But, again, in keeping with this new relationship between 
the United States and Mexico, we acknowledge the issue. And, as 
you suggested, it is one we need to work on.
    With regard to outbound operations, Secretary Napolitano, 
beginning in March 2009, instituted for the first time in the 
history of our border, not southbound checks of which there 
were intermittent ones, but instead a regular systematic check, 
not a 24/7 check, but a systematic, well-orchestrated effort to 
intercept guns and cash going south.
    With regard to the participation of local law enforcement, 
they do participate now, all over the border from California to 
Texas. Texas DPS [Department of Public Safety] is a big partner 
of us, and Border Patrol agents speak highly of it, as do I.
    With regard to local sheriffs and local police departments 
in Texas and elsewhere, they are often involved in task forces 
that are participating in southbound checks, and they share in 
the forfeiture of assets that are seized and liquidated as a 
result of those seizures.
    So the answer is, yes, those partnerships are critical. And 
they can always be improved, but they are very extensive, as we 
speak.
    Mr. Carter. We certainly are perfectly willing to be 
involved in our State, and our Governor is speaking out 
publicly that he is willing to share any resources you need to 
protect our State. Because, quite honestly, we are very 
concerned about the violence across the border.
    I was with people from Laredo yesterday. We were talking 
about how much we used to share a great celebration on our 
borders, George Washington's birthday celebration, and it used 
to flow back and forth between Nuevo Laredo and Laredo. That 
flow now stops, and we have snipers protecting our meeting of 
Governors on the international bridge. That is a dangerous 
situation that shouldn't occur between friendly neighbors, and 
it concerns Texas greatly that this is going on.
    Mr. Bersin. It should concern all Americans, Mr. Carter. 
And I will say that, for all the violence taking place in 
northern Mexico, including Nuevo Laredo, the fact is that we 
have not seen that spillover violence into the United States, 
even from Juarez to El Paso. And, Mr. Carter, it is a major, 
major mandate of CBP to see that that does not happen. Working 
with DOJ [the Department of Justice] and with local law 
enforcement, we need to make clear to the cartels, particularly 
in the wake of the killing of a law enforcement agent in 
Mexico, that we will not tolerate the widespread violence 
coming over from Mexico into our country, and we will not 
tolerate the killing of American law enforcement officers.
    Mr. Carter. Well, my time is up. But I assure you the State 
of Texas stands ready, willing, and able to assist you in any 
way you request.
    Mr. Bersin. Thank you, sir.
    Mr. Aderholt. Ms. Roybal-Allard.

          INTERNATIONAL TRADE AND IMPORTATION: ILLEGAL IMPORTS

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And welcome, Commissioner. As you are well aware, 
protecting American businesses and American workers from 
illegal imports is a key component of CBP's mission. 
Unfortunately, the agency has been unable to prevent Chinese 
shippers from evading paying dues on many of their shipments 
into the United States.
    In November, Senate investigators posing as business owners 
easily found ten Chinese companies willing and able to sneak 
merchandise into the United States to avoid paying duties which 
have been imposed to protect more than 120 domestic companies 
and 12,000 U.S. workers from unfairly traded imports.
    Also, steel industry investigators recently discovered a 
consignment of tubing bound for the Los Angeles market, used 
books, again to avoid detection of their required duties.
    This failure to address industrial smuggling, as you know, 
is costing American jobs and robbing our Treasury of much 
needed revenue. What is preventing CBP from doing a better job 
of addressing this threat posed by Chinese illegal imports? And 
what is it that you are doing to address this, and how can we 
be helpful?
    Mr. Bersin. Ms. Roybal-Allard, I would say that of the many 
changes that the Secretary has instituted and that I am proud 
to be implementing, one of the largest has to do with 
reemphasizing the importance of our trade function at Customs 
and Border Protection; in addition to securing the flow of 
goods, we need to expedite the lawful movement of goods. And in 
fact we see that expediting of lawful traffic as being entirely 
consistent with and critical to raising our security profile. 
It is only by expediting the movement of the vast amount of 
lawful traffic that we can actually concentrate our attention 
on the very small amount of traffic that prevents risks of harm 
to our security. And we include in the definition of 
``security,'' our economic prosperity and our economic 
competitiveness.
    So in fact we are revamping the relationship between our 
ports and the trade function at CBP to see to it that trade 
enforcement of Intellectual Property Rights, of various 
antidumping provisions, has a new emphasis in our activities, 
because we don't see that as being antithetical to our security 
duties.
    And I think you will see over the coming weeks and months a 
focus on such industries as the textiles. As you see a focus on 
the evasion and the defrauding on the basis of NAFTA [North 
Atlantic Free Trade Agreement] distinctions, I think you will 
see increased attention both from CBP and from ICE to 
Intellectual Property Rights enforcement. These are important 
objectives of the Secretary and ones that we see as completely 
consistent with our mission of keeping dangerous people and 
dangerous things out of the United States.

               PORTS OF ENTRY: NEED FOR IMPROVED SECURITY

    Ms. Roybal-Allard. Which brings me to my second question. 
The National Immigration Forum and the Texas Border Coalition 
have found that while billions of dollars have been spent 
between ports of entry, such as the vast expansive desert along 
the southwest border, by comparison DHS has spent little to 
improve security at the ports of entry.
    According to a white paper by the Texas Border Coalition, 
the probability of a person being apprehended for criminal 
activity between ports of entry is 70 percent, and only 30 
percent at the ports of entry where the bulk of criminal 
activity occurs.
    This is a vulnerability, as has been discussed earlier, 
that Mexican drug cartels have exploited. And according to the 
2010 National Drug Threat Assessment, more than 90 percent of 
hard drugs smuggled into the U.S. in 2009 actually came through 
our border ports.
    In addition, according to the Border Trade Alliance, which 
is a network of leaders and business and government, 
insufficient staffing at border crossings is creating 
bottlenecks that seriously impede the flow of commerce vital to 
the economy of both countries.
    While I am pleased that your fiscal year 2012 budget 
request includes additional funding to meet this need, it falls 
far short of what is needed to combat drug cartels and 
facilitate the flow of goods and people through our busy border 
ports of entry.
    I understand that earlier you spoke of efforts and of 
success along a specific corridor in Arizona on the Southwest 
border, and I applaud your efforts in that area. However, given 
the reports that I referenced, can you please tell us what 
strategies you have to address the threats at the ports of 
entry? And wouldn't our country be better served if our 
resources were directed towards these areas that appear to be 
the main ports of illegal activity?
    Mr. Aderholt. Ms. Roybal-Allard, your time is expired. But 
go ahead and answer this question briefly. And then we will go 
on. But go ahead.
    Mr. Bersin. The issue is not a zero-sum game. And you are 
exactly right; we need to see the border not as divided 
irrevocably between the ports and at the ports, we have to see 
it as a continuous border. And we do see it that way at CBP.
    So in fact, as you noted, the budget asked for 300 
additional CBPOs that are necessary to staff the new ports of 
entry on the Southwest border. We have also received 250 more 
CBPOs in the Southwest supplemental bill, in the 2012 budget 
actually made a part of the base budget. But over time we do 
need to address that issue. There is no question.
    In fiscal year 2004, there were 17,689 CBPOs and there were 
10,819 Border Patrol officers. In fiscal year 2011, there were 
20,370 Border Patrol agents and 20,777 CBPOs. So while we have 
seen growth in CBPOs, we have seen much greater rates of growth 
in the Border Patrol.
    We are conscious of the issue you raise, but we see it as a 
continuum and believe that we can continue to grow CBPOs in a 
way that will address more effectively the issues you raise.
    Mr. Aderholt. Mr. Latham.

                BORDER SECURITY: BORDER SEARCH AUTHORITY

    Mr. Latham. Thank you, Mr. Chairman.
    Welcome, Commissioner. I have heard from different people 
inside the Department and outside the Department on the issue 
of contraband coming into this country, whether drugs, whatever 
it may be, that maybe we are not using the kind of authority we 
already have. I am talking about the border search authority. 
There has been a change in the way the authority is used 
according to some. If you would just tell us what your policy 
is, and whether search authority is being utilized in the way 
it should be.
    Mr. Bersin. Mr. Latham, I can speak as a former prosecutor, 
and assure you that there is no place in the American landscape 
where American law enforcement has greater powers of search 
without any reasonable suspicion or any probable cause but, 
rather, as a matter of protecting the American Homeland at the 
physical ports of entry. Those authorities are fully in use, in 
fact are even in greater use with regard to matters of 
questioning.
    So, for example, in the wake of the assassination of Agent 
Jaime Zapata in San Luis Potosi, we exercise those authorities 
to the fullest, to question and hold in secondary anybody with 
the remotest link to the Zeta group believed to be responsible 
for the murder of Agent Zapata.
    So I want to assure you as a prosecutor, also as the head 
of CBP, that we understand our authorities. We understand that 
they need to be used responsibly, but they also need to be used 
fully, and they are being used to the fullest extent consistent 
with our tactical objectives.
    Mr. Latham. I don't understand why we keep hearing reports 
that it is not being used as it should be, or as widely. Are 
there any other agencies that you give that authority to?
    Mr. Bersin. When people are cross-designated from ICE or in 
fact from one of the DOJ agencies or in fact, as Mr. Carter 
suggested, when local law enforcement is part of the task on 
the outbound, if they are cross-designated they are actually 
empowered with the same authorities of search to the fullest 
extent permitted at the border, which is the widest permitted 
under American law and jurisprudence.
    So I think what would be helpful is when you are told that 
a border authority is not being used, it is good to get the 
case; and I would be happy to respond to the case, because I am 
a very firm believer in the exercise of our authority at the 
border, responsibly, but also fully.
    Mr. Latham. So how does the contraband come in?
    Mr. Bersin. Those authorities are not exercised on every 
car that comes in across the United States border. We have 
270,000 vehicles coming into the United States every day from 
the northern border and the southern border, and what we use 
are risk management, the experience and skill and knowledge of 
our officers, which is not perfect. But the alternative is not 
one that the Congress has ever commended to us, which is to 
open up every trunk and subject every car to an X-Ray, which 
would bring trade and travel into the United States, so 
critical to our economy, to a halt.
    But you are right, there is a decision that can be made. I 
submit to you, sir, that we want to use our powers to the 
fullest, but we want to use those powers where we have good 
reason to believe that they will provide us with a secure 
result and not represent an undue burden on lawful trade and 
traffic.
    Mr. Latham. Do we have any idea what percentage of the 
amount of, say, drugs are being caught at the border?
    Mr. Bersin. Mr. Latham, I have been involved in border-
related activities for 20 years, and I have heard a whole range 
of estimates. And rather than provide one, all of which are, at 
best, educated guesses, I would just as soon share my personal 
view, not an official view, off line. I can't state it with any 
official imprimatur and would hesitate to do that and thereby 
mislead people that there is some more certainty to it because 
of the position I occupy.

        INTERNATIONAL TRADE AND IMPORTATION: BORDER INSPECTIONS

    Mr. Latham. Ms. Roybal-Allard was talking about trade. A 
lot of the companies in the U.S. have teamed up in a 
partnership like the Customs Trade Partnership Against 
Terrorism and importer self-assessment programs, but they still 
seem to have significant delays. Apparently, there are 47 
different agencies involved in some way in border inspections. 
Are the programs working as they should?
    Mr. Bersin. Sir, there are now more than 10,000 companies 
that are part of the Customs-Trade Partnership Against 
Terrorism. As I indicated in response to Ms. Roybal-Allard's 
question, one of our major objectives consistent with 
maintaining a high level of security and increasing security 
levels is to restructure the relationship with the trade and 
provide a more expedited passage for those members of the trade 
community who are trusted shippers, who have engaged in the ISA 
[Importer Self-Assessment Program], who have engaged in the 
supply chain security matters.
    And I think if you consult with the trade associations, you 
will see, both in the air cargo area, where we have partnered 
on the security measure having to do with freight, so too in 
terms of this idea of what benefits can we provide to the 
trusted shippers, to the trusted importers, to the trusted 
customs programs. And we are working with the private sector to 
enhance those benefits and to work with our partner government 
agencies.
    While there are 47 agencies for which we serve as the 
executive agent and we take action at the border on their 
behalf, seven agencies, including EPA [the Environmental 
Protection Agency], FDA [the Food and Drug Administration] 
notably, Agriculture, the Highway Safety Transportation, are 
the main agencies for which we work, and that is where the ACE 
[Automated Commercial Environment] program is critical. And I 
look forward to discussing with the committee the work we are 
doing with ACE that is critical to the issue you raise.
    Mr. Aderholt. Let me yield now to Mr. Dent. I understand 
you have a quick question for clarification.

              CARGO SECURITY: CBP AND TSA RESPONSIBILITIES

    Mr. Dent. Commissioner Bersin, just quickly. Could you 
please clarify for the record the respective roles of CBP and 
TSA with regard to screening and inspecting international air 
cargo?
    It is my understanding that CBP inspects arriving cargo at 
ports of entry under its customs authority, but that TSA 
inspects and screens U.S.-bound cargo overseas and departing 
the U.S. because of its aviation security responsibilities. And 
it is the only agency empowered to carry out such screening 
overseas. Can you clarify that?
    Mr. Bersin. Yes. That is generally correct in terms of 
where the physical inspections take place, although TSA relies 
on certified screeners in many cases abroad. But we are 
involved very heavily in this work in partnership with TSA, 
because the targeting work that takes place is done through the 
National Targeting Center for Cargo in Herndon, Virginia.
    So, for example, when cargo is placed on a commercial 
airline or on an express carrier, there is a manifest filing 
that is processed by CBP officers in Herndon, Virginia. We are 
partnering with TSA, so there are TSA officers.
    Mr. Dent. You are talking about the cargo manifest, not the 
passengers' manifests?
    Mr. Bersin. We analyze the passenger manifest as well at 
the National Targeting Center for Passengers. But for cargo, we 
co-locate with TSA so that the targeting is being done by CBP 
at the NTC-C. But the actual screening, you are correct, is 
being done by either TSA personnel or TSA-certified screeners.

                         CUSTOMS FEE ADJUSTMENT

    Mr. Dent. Thank you.
    Mr. Aderholt. Let me turn now just briefly--and I know we 
have very limited time, and I want to get to a couple more just 
for a second round. But as you know, Commissioner, it has been 
difficult in getting the customs fee changes enacted in the 
past. And of course it is out of this Committee's jurisdiction. 
But how will CBP make up that $55 million fee revenue 
difference if the legislation is not enacted as we had 
discussed earlier?
    Mr. Bersin. Mr. Chairman, this is part of a larger issue 
and challenge that faces CBP. So, for example, 37 percent of 
our CBPOs, 37 percent of the 20,186 officers are actually paid 
by user fees. So when we see a decline, which we have seen 
during the height of the recession--in 2009 we saw a decline in 
user fees of 8 percent--we need to make up the difference and 
we do that in the appropriations.
    It is not a satisfactory situation, which is why we have 
asked for the help of the Congress in both repealing the 
exemptions from the COBRA [Consolidated Omnibus Budget 
Reconciliation Act] fee to generate the $55 million in a period 
of constrained budget resources.
    But you are correct. If that relief is not there, we need 
then to turn to our appropriations. And we do it in a way 
consistent with the appropriations, but in a way that does not 
permit the predictability or, as Ms. Roybal-Allard's question 
suggested, with the growth projectory that we have seen where 
there is an appropriation made in the case of the Border 
Patrol, and we have seen a steady growth.
    Mr. Aderholt. Well, as we mentioned earlier, it is about 
truth-in-budgeting. We need a responsible request from the 
Administration for operations, especially in light of the fact 
that we have a shortage of officers at major airports. And 
these are things that certainly we need to pay attention to.
    At this time, let me go ahead and recognize Mr. Price.

             CARGO SECURITY: CONTAINER SECURITY INITIATIVE

    Mr. Price. Thank you, Mr. Chairman.
    And Mr. Commissioner, I want to get into another of the 100 
percent mandates you are dealing with from the 9/11 Act, this 
one having to do with the scanning of U.S.-bound cargo 
overseas. I will not have time to ask the full question and you 
won't have time to fully answer it, so we will both no doubt 
make submissions for the record.
    But let me just flag this issue, because I think it is 
important and I think there is a certain ambiguity in your 
budget with respect to the 2-year intentions.
    I have made it abundantly clear that I share the 
Secretary's skepticism that the 100 percent mandate is 
achievable, certainly within the 2012 time frame. She just said 
it is not going to work. And I believe it would probably take a 
prohibitive amount of resources to scan all cargo overseas at 
any near point in time.
    In any event, DHS has chosen a different path. I think you 
have made that quite clear. You are using a risk-based 
methodology, using advance information and intelligence to 
target the high-risk, highest risk maritime cargo for scanning 
overseas.
    Now, in light of this, I want to ask you to elaborate on 
your budget request and on the future, in particular, of the 
Secure Freight Initiative program, which, as you know, is the 
pilot program involving 100 percent scanning overseas, and the 
Container Security Initiative which involves dozens of ports 
overseas where the targeting methodology is being implemented 
and perfected.
    The earlier budget request that you made for 2011 seems to 
envision certainly the scaling down, if not the phasing out of 
the Secure Freight Initiative pilots in all places except 
Pakistan. Yet your 2012 budget includes funding for two pilots 
to test the 100 percent screening mandate. In essence, as I 
read it, replicating the SFI model used in Pakistan in a 
different high-threat corridor likely on the Arabian peninsula. 
I do not understand the consistency of that request with the 
path the Department has chosen and with your earlier funding 
proposals.
    And then, also, we need to know what the future of CSI is. 
Is it really feasible to reduce the overseas physical presence 
of your officers in these ports where this is a very difficult 
thing to carry out? Is it really feasible to reduce that to the 
degree that you are suggesting? And in any event, what is the 
future of the CSI approach and the kind of pattern you 
anticipate for continuing and enhancing this kind of work 
overseas?
    Mr. Aderholt. Commissioner, let me just say, we have that 
joint session. If you could just briefly maybe answer Mr. Price 
and then maybe submit the rest of your answer. I do want to let 
Mr. Carter get one question in before we go to the joint 
session. So if you will briefly answer that, and then we will 
go to Mr. Carter.
    Mr. Bersin. Yes, sir.
    In a word, we should supplement the record, and we will, 
because these are very serious issues. And with regard to the 
Secure Freight Initiative (SFI), we think that the pilots have 
demonstrated that we should restrict the application of that 
model, which is basically getting X-Ray images taken abroad by 
foreign service nationals and transmitted to Virginia for 
analysis. We think that should be restricted to those 
relatively few countries where American officers would not be 
safe. So in fact, we do not have officers in Pakistan, and that 
is why we have maintained the SFI in that form there.
    The CSI [Container Security Initiative], frankly the 
changes there--which we need to elaborate--are fully consistent 
with the difference in circumstances between 2002 and today. So 
in fact in 2002, we had no advanced data. We had no automated 
targeting capabilities. We had no NTC. We had no Do Not Load 
authority. We had a limited overseas presence. We had very few 
international relationships. That situation has completely 
changed 8 years later, 9 years later. And the CSI program, 
still very critical, needs to evolve and is evolving, and this 
budget reflects that.
    But Mr. Chairman, if I may, we would like to supplement 
that. And Mr. Price, if possible, I would like to have an 
opportunity to go into much greater detail on what the new CSI 
looks like and how it is consistent with the goals that you 
have espoused and articulated.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Thank you.
    Mr. Aderholt. Thank you, Commissioner.
    Mr. Carter.

                  BORDER SECURITY: STONEGARDEN GRANTS

    Mr. Carter. Thank you.
    We have a short time scheduled here. Operation Stonegarden 
grants are in your budget. How are they being utilized? Has 
there been any mention of that today? And is there anything 
that is preventing them from being utilized?
    Mr. Bersin. No, sir. What we have done is channeled and 
funneled the Stonegarden grants, which were border related. We 
funneled them to the area of greatest impact and need, which is 
the southwest border. These funds permit local law enforcement, 
sheriff departments from Texas, police departments in 
California, to actually use their officers overtime in 
operations that are related to border security.
    The Secretary and I are great proponents of this program, 
and that program will continue and hopefully be strengthened 
over the years to come.
    Mr. Carter. If there are ways to strengthen this program 
let us know what they are.
    Mr. Bersin. Thank you.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Commissioner, for being here 
today. We look forward to working with you on these issues. And 
the meeting is adjourned.
    Mr. Bersin. Thank you, Mr. Chairman.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                          Thursday, March 10, 2011.

                            U.S. COAST GUARD

                                WITNESS

ADMIRAL ROBERT J. PAPP, JR., COMMANDANT, U.S. COAST GUARD

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. The Subcommittee will come to order. And 
today we welcome Admiral Papp, the Commandant of the Coast 
Guard, to what makes his first appearance before the 
Subcommittee. Admiral, while I think it is safe to say that you 
would rather be on the sea, we thank you for being here and we 
look forward to your testimony on the Coast Guard's fiscal year 
2012 budget request.
    The Coast Guard is currently in the midst of one of the 
most challenging periods in its 200-year history. On the one 
hand, the Coast Guard has laudably responded to unprecedented 
operational challenges such as the horrific Haitian earthquake 
and the prolonged BP oil spill. At the same time, the agency is 
showing real signs of stress and fatigue, to include a 
troubling increase in preventible but fatal accidents, higher 
maintenance costs, more frequent mechanical casualties aboard 
aging cutters and aircraft, and proposals to significantly 
scale back operational capabilities, active duty military 
personnel, and critical acquisitions.
    In the wake of these challenges I believe the Coast Guard 
now finds itself at a tipping point between fulfilling its 
statutory missions and the realities of our Nation's fiscal 
crisis.
    In fact, during last month's State of the Coast Guard 
Address you stated: Quote, ``We may need to reduce the number 
and range of capabilities we have added since 9/11 until 
properly resourced, and this will be acceptable.''
    Admiral, this statement is disturbing on many levels. It is 
a stark admission that your budget does not sufficiently 
address your mission needs. And perhaps most troubling, it 
appears as though you are limiting the area of your budget that 
you are examining for contraction to only post-9/11 security 
capabilities. These are concerns that we must candidly discuss 
here today.
    This brings us to your fiscal year 2012 budget request. 
Upon first glance this budget proposal appears fairly robust 
and balanced, but on closer examination there are requests in 
this budget that will significantly impact current operations 
and Coast Guard features.
    First, despite your assertions that the Coast Guard must 
reconsider its mission priorities, your budget and its 5-year 
projection continues to support a mission needs assessment that 
was last updated in 2004.
    Second, your budget proposes more than $140 million in so-
called efficiencies, administrative savings, and support 
reductions that are not clearly defined. Considering the fact 
that the Coast Guard claimed just last month that it needed a 
budget adjustment of $107 million for operations just to make 
ends meet and complete the current year, we need the details 
behind these seemingly arbitrary reductions.
    Third, the Office of Management and Budget is delaying the 
fifth National Security Cutter by forcing you to fund closeout 
activities before you can award a contract for the cutter 
production this year. As a result of requesting funds for 
activities that will not occur for several years, an even 
greater strain will be placed upon your antiquated High 
Endurance Cutters and the cost and schedule of the National 
Security Cutter will grow.
    And finally, you budget proposes to decommission one of the 
two heavy icebreakers and further study the needs for polar 
capabilities rather than confront the budget realities of what 
are known mission needs.
    Admiral, at a time when the threats facing our Nation are 
as grave as they have ever been and our deficit spending is out 
of control, the first thing we need is truth in budgeting that 
gets our security priorities right. So the immediate and long-
term impact of your budget request and how it supports our 
mission requirements are what we need to better understand here 
in this hearing this afternoon.
    Admiral, we know that you have a tough job. That is 
precisely why we are relying on you to explain how this budget 
moves the Coast Guard forward and does so in a way that is 
fiscally responsible and appropriately justified.
    Before I turn to the Admiral for his statement, let me 
recognize the distinguished ranking member, Mr. Price, of this 
Subcommittee for any remarks he may wish to make.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                   Opening Statement: Chairman Price

    Mr. Price. Thank you, Mr. Chairman. Admiral, welcome to the 
Subcommittee. You assumed the Commandant's position just over 8 
months ago and we are pleased to welcome you here today for 
your first hearing, before us anyway, on the Coast Guard's 2012 
budget request.
    Over the past year, the Coast Guard has operated in a 
number of challenging environments: From the earthquake in 
Haiti, where you assisted in both humanitarian efforts and port 
restoration, to the unprecedented Deepwater Horizon oil rig 
explosion and cleanup where over 3,000 of your personnel 
recovered more than 34 million gallons of oil-water mix and 
performed controlled burns to remove more than 11 million 
gallons of oil to protect our shorelines. Those were impressive 
feats, and I commend all of the men and women of the Coast 
Guard for your efforts.
    While there have been these high notes, the Coast Guard has 
also experienced some unfortunate events. Over the past 2 years 
the Coast Guard has had too many accidents. I know you agree. 
Accidents that resulted in the tragic loss of 14 aviators and a 
Marine Safety and Security Team member. This accident rate is 
unprecedented, and I know you are working hard to rectify it. 
You have required aviation standdowns to review safety 
operations and have implemented recommendations from these 
assessments. We hope and pray that these efforts pay off and we 
can avoid these type of mishaps during the remainder of 2011 
and through the next fiscal year.
    In total, the administration is requesting $8.677 billion 
in discretionary resources for the Coast Guard in fiscal 2010. 
This level is about 2 percent, or $135.5 million, above the 
2010 enacted level. I am pleased to note that this request does 
not include some elements with which this Subcommittee 
disagreed last year: Significant reductions in manpower, for 
example, or accelerated decommissioning of planes and ships 
without the timely acquisition of new ones to replace them.
    Admiral, your State of the Coast Guard Address of February 
10th gave advanced notice of key aspects of your 2012 budget 
request. You emphasized recapitalizing and building capacity as 
well as crisis response and management capabilities. You are 
requesting $1.4 billion to rebuild your aviation and cutter 
assets so that you can replace aging and unreliable assets. The 
budget also includes a substantial increase in shore facilities 
to accommodate these new assets as they come online. There is 
$22.2 million to hire new personnel to enhance your agency's 
ability to prevent disasters in the Nation's waters and respond 
to them when they occur. And the budget includes $39 million 
for the polar ice breaking program, an activity that was 
recently transferred from the National Science Foundation to 
the Coast Guard.
    At the same time the Coast Guard, like every Homeland 
Security agency, has been asked to be good stewards of taxpayer 
dollars and to find savings where possible. This budget 
includes approximately $130 million in savings from management 
efficiencies, administrative services, and the decommissioning 
of aging assets that will be replaced by 2012.
    I understand that these reductions will in no way 
jeopardize your ability to update your ships, planes, boats and 
shore facilities so the Coast Guard can continue to perform its 
mission unimpeded. We will count on you to let the Subcommittee 
know if this is not the case.
    We hold the men and women of the Coast Guard in the highest 
regard on this Subcommittee. To paraphrase your statement in 
the Coast Guard address: You protect citizens from the sea, you 
protect America from threats delivered by the sea, and you 
protect the sea itself. All are distinct missions yet 
interrelated and critically important.
    Our job here today and through the appropriations process 
is to ensure that your budget adequately resources the Coast 
Guard to fulfill these missions. At the same time it is 
important to note that no program or account is off limits to 
scrutiny. I know you share that point of view, Admiral, and I 
look forward to working with you again this year.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                    opening statement: admiral papp

    Mr. Aderholt. Thank you, Mr. Price. Admiral Papp, we look 
forward to hearing your testimony.
    Admiral Papp. Good afternoon, Mr. Chairman and Ranking 
Member Price. Sir, you are absolutely right. I would rather be 
at sea, but I got about 14 years of my career where I was able 
to do that, and as an old sailor on a day like today when it is 
rainy and cold outside, I welcome the opportunity to be inside 
the room. But more than anything else, I am privileged to be 
here so that I can try to provide that support that the people 
who are currently sailing out there and protecting our shores 
desperately need.
    Over the past year Americans have seen the Coast Guard in 
action like never before: In January, responding to the 
devastating earthquake in Haiti and in April responding to the 
Deepwater Horizon oil rig explosion and oil spill. These 
responses received a lot of attention and rightly so. But all 
the while, thousands of Coast Guard men and women were also 
performing our many other challenging and persistent maritime 
missions.
    This past week is typical. The Coast Guard Vessel Traffic 
Service in Sault Ste. Marie, Michigan, which is on the St. 
Mary's River in Michigan, or what local mariners call Sault 
Traffic, celebrated its 115th year of operation. Last year, 
Sault Traffic helped 61,500 vessels to safely carry over 70 
million tons of cargo with a value of over $3 billion. And our 
Coast Guard ice breakers are up there now enabling the flow of 
cargoes like iron ore and coal from the fields of Minnesota 
being shipped to the steel mills in Indiana and Ohio, cargo 
that is critical to American jobs and to our economy.
    Just last week as well, eight members of a Coast Guard 
Maritime Safety and Security Team from San Diego returned home 
from a 4-month deployment in the Gulf of Aden in support of our 
joint task force anti-piracy mission. The Coast Guard has been 
training boarding teams to board U.S. Navy ships and conducted 
three high-risk boardings of suspected pirate vessels. Also, 
last week in the Gulf of Mexico, Coast Guard air and cutter 
crews from Mobile, New Orleans, and Morgan City rescued oil 
workers from their platform when it caught fire and then 
monitored for pollution.
    The 39-year-old cutter Midget, actually the youngest of our 
High Endurance Cutters, returned from a counter-drug patrol in 
the eastern Pacific, where the patrol detected and intercepted 
a self-propelled semi-submersible vessel disrupting 2 tons of 
cocaine and containing two suspected smugglers.
    In the Straits of Florida, the cutter Ocracoke repatriated 
14 Cuban migrants after they were interdicted along with two 
suspected smugglers from a small vessel just north of Cuba. And 
the cutters Bear and Kodiak Island rescued and interdicted 87 
Cuban migrants who were bound for Miami and 6 brave lieutenants 
and their crews onboard. Six Coast Guard patrol boats in the 
northern Arabian Gulf continue to serve our country and provide 
for the security of the country of Iraq working for the Central 
Command.
    These missions protect U.S. national interests. They are 
missions that not only the Coast Guard has the authorities, 
competencies and capabilities to do, but no one else can do 
them. Our Homeland is safer and more secure because Coast Guard 
men and women perform them so ably.
    What concerns me is that our aging fleet of cutters and 
aircraft continue to cost us both in dollars and in mission 
performance. It is vital that we protect our waterways by 
sustaining frontline operations while continuing to 
recapitalize our fleet.
    So as you noted, I reported in my State of the Coast Guard 
Address our service is ready to meet mission demands, but we 
are facing many challenges. Our fiscal year 2012 budget request 
responds to these challenges. Given current fiscal realities, I 
have directed management efficiencies and targeted reductions 
in administrative costs and professional services totaling over 
$100 million. We will reinvest these savings in frontline 
operations. And my priorities for this budget are: first, to 
sustain our frontline operations; second, to rebuild the Coast 
Guard; third, to enhance maritime incident prevention and 
response; and then last, to support our military families.
    Now, in sustaining our frontline operations, the fiscal 
year 2012 budget requests roughly $200 million over either the 
President's request for 2011 or the continuing resolution. It 
funds the military pay raise and increases in other benefits, 
which enable our service to continue to maintain and attract 
highly competent people. It also provides operating funds for 
the new National Security Cutter, new patrol boats, new 
response boats, new maritime patrol aircraft, and support for 
our obsolete polar ice breakers. And it increases depot-level 
funding to sustain our aging fleet of ships and aircraft.
    In terms of rebuilding the Coast Guard, my second priority, 
we are requesting over $1.4 billion for our ongoing 
recapitalization effort, an effort that has already begun to 
show operational impact.
    As an example, during her first patrol, the National 
Security Cutter Bertholf interdicted 12,500 kilograms of 
cocaine with a street value of nearly $400 million and detained 
nine suspected drug smugglers. Last week, one of our new 
Maritime Patrol Aircraft, the Ocean Sentry, was instrumental in 
disrupting two drug smuggling events in the Strait of Florida 
and then diverted to assist a vessel that was taking on water, 
all in a single patrol, and was able to do that because it has 
twice the duration of flight over the aircraft that it is 
replacing and carries a modern sensor package.
    New assets like the National Security Cutter and the 
Maritime Patrol Aircraft enhance our ability to keep drugs from 
reaching our shores and literally save lives.
    In terms of enhancing maritime incident prevention and 
response, it is vital that we ensure the safe and efficient 
flow of maritime commerce, protect our national resources, and 
effectively manage incidents when they occur. The 2012 budget 
does this by improving the capacity and competency of our work 
force. $10.7 million is allocated for the hiring of additional 
marine inspectors, investigators, and fishing vessel safety 
examiners, and $11.5 million is provided to fund a new national 
Incident Management Assist Team (IMAT). The IMAT will assist in 
day-to-day missions and respond to large-scale events such as 
spills of national significance, hurricanes, or other 
disasters.
    Then finally, supporting military families. You can't have 
a strong military workforce without healthy families, and this 
budget puts us on track to receive needed housing construction 
monies and funds that will begin to close the child care gap 
that we find compared to the Department of Defense.
    In conclusion, for over 220 years the Coast Guard has 
provided for the safety and security of American citizens and 
our ports and waterways. As the lead maritime component of the 
Department of Homeland Security, the fiscal year 2012 budget 
will ensure that the Coast Guard is able to continue to perform 
our vital maritime missions.
    Thank you for the opportunity to testify today, and I look 
forward to your questions, sir.
    [The statement of Admiral Papp follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            FLEET MIX STUDY

    Mr. Aderholt. Thank you, Admiral. You have been very frank 
about the reality of competing mission priorities in a world of 
increasingly limited resources. Yet as I noted in my opening 
remarks, your budget continues to support the mission needs 
assessment that was done back in 2004. My understanding is the 
Coast Guard has been working for years on an update as to that 
2004 study known as the Fleet Mix Study, but has yet to submit 
it to Congress.
    Where is the Fleet Mix Study and when will it be submitted 
to Congress?
    Admiral Papp. Well, sir, there is nobody that feels more 
strongly about getting the right tools out there to our people 
than I do. Over the last 6 years, 4 of those years have been 
spent on operational command assignments first in the Great 
Lakes and then responsibility for the entire Atlantic area and 
managing those very hard to maintain ships and watching the 
very hard working crews that struggle to maintain those old 
ships and keep them on station performing missions. So I am 
absolutely desperate to get the new ships out there.
    We continue to study this, we have conducted study after 
study, which seems to confirm the direction which we are going 
in, and we need to be about the business of building ships.
    The fleet mix analysis that you asked for is in review. We 
have completed the first portion of it, and it is with GAO 
[Government Accountability Office] right now. I can tell you 
that it does support the baseline approach that we are taking 
in terms of recapitalizing our fleet and indicates that the 
ships that we have already embarked upon building will perform 
better than those that are out there, but we understand that 
intuitively already.
    What we are in the process of right now is doing the second 
and third levels of that study, which impose cost constraints, 
and then also look at unconstrained environments and what the 
Coast Guard would need to fully perform our mission.
    Mr. Aderholt. When do you think that you will be able to 
submit a study to us here at the Congress?
    Admiral Papp. As I said, sir, we have submitted it to GAO 
right now. It is continuing to be reviewed by the 
administration, and I am pushing as hard as I can to get it to 
you as soon as we can because it supports our needs.
    Mr. Aderholt. So right now you are pretty much at their 
mercy at waiting to hear back from them?
    Admiral Papp. I am working with the Secretary and the 
administration to get it to you as quickly as we can, sir, and 
I will redouble those efforts.

                  SECURITY-RELATED MISSIONS: CUTBACKS

    Mr. Aderholt. What security-related missions are you 
examining for either elimination or contraction?
    Admiral Papp. Sir, I think some people who have listened to 
my speeches have mischaracterized what I am talking about. We 
have no intent to cut back on any of our security 
responsibilities, and I firmly believe in the need to do most 
of the things that we are doing out there.
    When I talk about cutting back on some of our activities, 
what I am talking about is looking at the full range of 
activities that we have asked some of our units to do. And if I 
could focus in just one area. We have Maritime Safety and 
Security Teams. They are roughly about 80 people who are tasked 
with providing fast response. We refer to them as sea-going 
SWAT teams. They are located, as you know, around the country, 
and they drive boats tactically. They have to be well-trained 
and proficient in small arms use. And the original intent was 
to have them provide fixed and moving security zones around 
events of national significance and provide extra capacity in 
ports when security warrants it.
    Because of our general can-do attitude in the Coast Guard, 
we have looked for other things for them to do as well. And 
what we have done is we have added additional activities that 
they have to become qualified to do, in some cases, things that 
people haven't even asked us to do, but because we are 
imaginative, enthusiastic, dedicated and hard working, we try 
to train those people up to do those activities.
    What I want to do now is look at the broad range of 
activities that we have asked these units to do, and then 
determine exactly what are the most important activities we 
ought to do that get the most bang for the buck for security in 
our ports, and then train these units to become absolutely 
proficient in those activities. It may require us to drop a 
couple of things.
    For instance, one of the things we are doing right now is 
training those Maritime Safety and Security Teams to do opposed 
boardings, which is another level of expertise--for these 
people to be able to go on ships where you have armed people 
and, perhaps, opposing them as they try to board. I don't 
believe these teams were ever intended for that specific 
purpose, but if that is needed, then we need to provide the 
proper resources, the proper training programs. And, in fact, 
the one Coast Guardsman who was lost that, Mr. Price mentioned, 
was involved in a training exercise for that specific 
competency. And we are giving not only that case a thorough 
review, but I have also taken one of my admirals, Admiral Paul 
Zukunft, and he is in charge of undertaking a stem-to-stern 
review, which is looking at all of our deployable specialized 
forces and making a determination on what are the most 
important things for them to be doing and then making sure they 
are doing it absolutely right and in a safe and effective 
manner.

                          ACQUISITION PROGRAM

    Mr. Aderholt. The fiscal year 2012 budget notably proposes 
a new budget structure to reflect the acquisition reform 
efforts the Coast Guard has undertaken over the past few years 
post Deepwater. However, this new budget structure does not 
help Congress understand the scope, schedule, and cost of the 
Coast Guard's recapitalization since acquisitions are no longer 
framed under one umbrella.
    What is the impact of the dissolution of Deepwater on the 
planned recapitalization efforts in terms of acquisitions and 
their associated costs?
    Admiral Papp. Mr. Chairman, I think it should actually 
assist the Subcommittee in having greater granularity on how we 
are conducting this project. I am extremely proud of the 
improvements and the progress that our acquisition program has 
made. I was involved with then Rear Admiral Currier, who is now 
our Chief of Staff of the Coast Guard, 4 years ago when I was 
Chief of Staff of the Coast Guard, working with Admiral Allen, 
to reform our acquisition programs, and we have come a long 
way.
    Parts of that is disassociating ourselves with a lead 
systems integrator in the Deepwater project where all of these 
things were lumped together and it was very difficult to 
disaggregate and identify exact costs for each one of the 
projects that was contained within. In other words, you did not 
know necessarily exactly how much one of the national security 
cutters was costing as opposed to a fast response cutter or a 
patrol boat replacement or some of the aircraft in there. 
Proper acquisition execution requires that you disaggregate all 
of these projects, establish acquisition project baselines for 
each one of them, set schedules, come up with predictable 
funding streams, and then execute on a stable program.
    The National Security Cutter, I think, is the one that I am 
most proud of, and we have worked very hard over the last 
couple of years to come up with now a fixed price contract, 
handling that separately with the Coast Guard dealing directly 
with Northrop Grumman to build the ships. We have come up with 
a fair price for that ship now. It is a little more expensive 
than we thought under the original project, but we can confirm 
and we can validate what these costs are because we are looking 
at them independently. Each one of our projects in the former 
Deepwater project can be looked at in that manner now, and it 
will enable me to better inform you in your oversight role as 
we go forward over the next couple of years.
    Mr. Aderholt. Under this new organization, how will you 
manage and measure the Coast Guard's progress of 
recapitalization?
    Admiral Papp. Well, we have acquisition project baselines 
where we have predicted individual projects, whether it is the 
national security cutter or the fast response cutter or our 
aircraft, and what years we intend to buy them. Of course, that 
gets revised almost every year depending upon the limits of the 
acquisition funding within our budget.
    This year you made note of the fact that there was a delay 
in awarding National Security Cutter No. 5. We were backed into 
that situation because, as we took the time to properly 
negotiate a fixed price contract before we awarded National 
Security Cutter No. 4, we were dealing with presumptions upon 
what we would need in the outyear budgets in order to pay for 
the next in that series of ships. They came in a little bit 
more than what we expected and now we are having to, in the 
fiscal year 2012 budget, for instance, ask for $77 million more 
to complete NSC [National Security Cutter] No. 5 before we can 
award it. And because of that, and the requirement, as you 
noted, to put the full price of any subsequent ships in a 
single-year budget, we decided to alter some of the other 
baseline acquisitions in that project: the fast response 
cutter, our patrol boat replacement, for instance. We can move 
some of those into fiscal year 2012 and perhaps buy out that 
program a little more quickly to make room in our budget in the 
outyears.
    Mr. Aderholt. Okay. All right. I think my time has elapsed. 
Mr. Price.

                          COAST GUARD MISSIONS

    Mr. Price. Thank you, Mr. Chairman. Admiral, let me pick up 
on the line of questioning the Chairman was originally 
pursuing. We all have referenced your State of the Coast Guard 
Address, a good address which received more than the usual 
attention. You have issued a caveat here today that you are not 
interested in unilaterally or summarily redefining the Coast 
Guard's mission. We understand that. But at the same time I 
think that address, many of those points, were well taken. And 
certainly the overall assertion that the mission needs to be 
defined very clearly and perhaps in key aspects reconsidered, 
it seems to me those were serious points that deserve to be 
followed up on.
    You have historical responsibilities, search and rescue, 
fisheries enforcement, drug interdiction, marine environmental 
protection. You have some post-September 11th missions, or at 
least that is mainly when they have come to the fore, maritime 
and port security operations, inspecting high-interest vessels, 
providing escorts for certainly military vessels. And at the 
same time you have some responsibilities that are changing 
before our eyes and that continue to be underdeveloped, 
particularly in light of these changes. The one that most 
obviously comes to mind is your role in the Arctic as the ice 
recedes. This Subcommittee reviewed Arctic operations in Alaska 
last year, and Admiral Colvin spoke very passionately and 
persuasively about this changing and challenging mission.
    So I want to ask you three interrelated questions. First, 
can you be more specific? You have offered one illustration 
here today, you might offer a little more elaboration about 
what you were referring to in your speech. What do you believe 
the core missions are? What is dispensable? What areas do you 
think the Coast Guard should not be asked to work in? And 
honestly, are there gray areas? Are there areas that really 
deserve further deliberation and debate? They are going to need 
to be performed possibly by someone somewhere in our military 
or Federal establishment and yet there is some uncertainty 
about where the responsibility should lie.
    Secondly, specifically, about these post-9/11 
responsibilities, what is your assessment of the Coast Guard's 
capability and your assessment of what the mission going 
forward should look like there? And if there is to be a 
lessening or shifting of responsibility, who, if anyone, should 
pick it up?
    And then finally, to what extent is this hard look that you 
are talking about reflected in your 2012 budget request? To 
what extent have you been able to already act on some of your 
convictions here, and to what extent is this a work in 
progress?
    Admiral Papp. Well, sir, in terms of balancing the 
missions, and one of the questions I always get particularly as 
a result of some of the times I speak and the State of the 
Coast Guard speeches (``What missions are you going to cut?'') 
I cannot cut any missions. All of our 11 mission areas are 
statutorily mandated missions that we perform.
    And as I stated in the State of the Coast Guard speech, we 
have a requirement to perform those. But we can't perform all 
11 statutory missions 100 percent any given day. The 
Administration, the Congress, and the taxpayers through the 
Congress, give us a finite set of resources to use and then our 
operational commanders have to apply them. And that is what I 
have been doing most of my career as an operator, and in 
particular the last 2 years before coming here as the Atlantic 
area commander. I was given only so many ships, so many people 
and so many aircraft to carry out the mission. And, on any 
given day--some of the persistent missions out there, as you 
know: search and rescue, migrant interdiction, marine 
environmental response, drug interdiction--you cannot do all of 
those things every day. As an operational commander, you use 
your staff, you develop priorities, you see where the risks and 
the threats are from based on intelligence, and then you assign 
those resources.
    The Haitian earthquake is just a perfect example of what I 
am talking about. We had cutters that were under way in the 
Caribbean, in the Florida straits, and in the Windward Pass 
either doing migrant interdiction, drug interdiction, or other 
duties down there, and those were the priorities for that given 
day, the day before the earthquake. When the earthquake 
occurred in Haiti, there was a national need for us to provide 
humanitarian response to those unfortunate people in Haiti.
    So literally overnight we took our finite number of 
cutters, cutters that were deployed on other missions, and 
repositioned them to Haiti. And, in fact, the next morning, the 
morning after the earthquake, we had two Coast Guard cutters 
steam in there, immediately start doing reconnaissance by 
surveying the damage and sending medical teams ashore. It 
demonstrates the great versatility, adaptability, and 
flexibility that comes with a Coast Guard resource. We can move 
it from one mission to another.
    But taking cognizance of the fact that when I did that--
when I directed those ships to go to Haiti, I was going to take 
a short-term deficit in drug interdiction and in migrant 
interdiction and some of the other duties that we do. But it 
was a national priority. We responded to it. We do not have 
Haitian earthquake cutters sitting out there. What we have is 
multi-mission cutters, ships and people that can respond to 
events like that.
    So that is the type of decisions that our operational 
commanders are confronted with on a daily basis out there. 
Would we like to have the resources to do 100 percent in every 
mission area? Of course we would. But we are also citizens of 
the country and understand that we need to tighten our belts 
and understand that resources are constrained, and so we do the 
best we can and then identify the shortfalls in terms of 
mission accomplishment and do our best to get the support. And 
right now, as I said, the support is to try to replace some of 
those old ships and versatile aircraft that we have got out 
there.
    You asked about post-9/11. I gave you the example of the 
Maritime Safety and Security Teams. Perhaps one of the ones 
that I am even more passionate about is our aviation program 
within the Coast Guard. And I am passionate about that because, 
as you note, we have lost 14 aviators in 2 years. That is 
unacceptable. I have had to attend and speak at two memorial 
services just in the time that I have been Commandant. And I 
don't want to speak at any more memorial services in my 
service.
    We have essentially the same numbers of aircraft--let's say 
helicopters--we have the same numbers of helicopters and pilots 
that we did prior to 9/11. Yet we have added on additional 
missions. Prior to 9/11, almost all that our helicopters and 
pilots did was search and rescue. They trained very hard to go 
out in the middle of the night in the middle of storms and 
hover over broken-down ships and put swimmers in the water and 
rescue people from certain catastrophe and death. And we have 
the best pilots in the world doing that.
    But since 9/11, we have picked up additional 
responsibilities. We now do rotary wing air intercept (RWAI), 
which is a mission to intercept low slow aircraft that might 
have intent of doing a suicide mission on the Capitol or on the 
White House. We have airborne use of force, where we train our 
people to carry marksmen on the sides of helicopters and 
potentially shoot out outboard engines on small boats that 
might be coming to do us harm. We are doing vertical insertion, 
where we are taking assault Coast Guardsmen trained for assault 
who lower themselves out of helicopters on rope onto 
noncompliant vessels.
    All of these things place an added training burden upon our 
people, and they are not necessarily complementary skills for 
our pilots for the search and rescue mission. So right now, 
where we used to devote about 40 percent of our flight hours 
for training for search and rescue, we are devoting 60 percent 
of our flight hours for training for various missions that 
might not necessarily complement each other and, in my simple 
sailor's estimation, dilutes the experience and proficiency 
level across those mission sets.
    No one asked us to do all those things. We took that on 
ourselves in many cases, and I think it is incumbent upon me as 
a leader who has lost people now to take a very serious look at 
all those things that we are doing and say perhaps we don't 
need to be doing all of that. Perhaps there are other agencies 
that might do it better. Or if the Coast Guard is the best to 
do it and there is a need to do it, then I need to go forth to 
the Congress and the administration and say I need additional 
resources to do it. So that is where I am coming from on that 
aspect of post-9/11 duties.
    And then the hard look at, yes, the third question was the 
hard look at those missions and our security. I am convinced 
that we are doing our best to provide for the security of our 
country. On any given day if we are alerted to a threat through 
intelligence, which is where we get most of our stuff, we will 
redivert every force we have and put it on security operations, 
neglecting and taking the short-term downturn in other 
activities because that is what we do. We are a versatile, 
adaptable force that can move between those mission areas. And 
my operational commanders, we push that down as low as we can 
in the organization to make those decisions, to make sure that 
we are doing the highest priority mission on any given day for 
our country.
    Mr. Price. Let me simply commend you for your candor and 
for your willingness to take on these significant issues 
frontally. I hope and believe you will find on this 
Subcommittee, on a bipartisan basis, ready partners in going 
through this necessary exercise and putting our, not just our 
budget, but our national security on a firmer foundation in the 
future.
    Thank you, sir.
    Mr. Aderholt. Mr. Frelinghuysen.

                          OVERSEAS ACTIVITIES

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Admiral, one of 
your strongest advocates is my colleague from New Jersey, Frank 
LoBiondo, who, if you will pardon the expression, has felt that 
the Coast Guard gets the short end of the stick. And I have to 
say, with the things that you are doing today around the world. 
I worry that you are shunted off under the aegis of the 
Department of Homeland Security. I see you in another venue. I 
serve on the Defense Appropriations Committee, and I would like 
to have you explore with the committee your involvement with 
the Navy.
    You get funding through the Navy's operations and 
maintenance accounts for what some call the ``supplemental 
overseas contingency operations,'' AKA, it used to be called 
the war on terror. Can you talk about how those dollars are 
spent and how you work with the Navy?
    Admiral Papp. Yes, sir, thank you. I for one, just because 
you brought it up, I am a strong believer that we belong in the 
Department of Homeland Security. Not every one of our mission 
sets fits neatly or exactly and precisely, but nor did it in 
the Department of Transportation either. There is always some 
portion of our mission sets that is not an exact fit, but right 
now we are fit in with a bunch of other agencies that have----
    Mr. Frelinghuysen. Are you ever?
    Admiral Papp. Yes, sir. But let me tell you why. And people 
from time to time make the suggestion that perhaps we should be 
in the Department of Defense. I think that we would be so small 
in the Department of Defense that oftentimes we would get 
overlooked there as well. And I think there is a value to 
having an armed service that is not in the Department of 
Defense because we do have those law enforcement authorities 
that none of the other four services have.
    And having said that, as I described to Secretary 
Napolitano when I interviewed with her originally----
    Mr. Frelinghuysen. With all due respect, I want to focus on 
your connection. I think it is good for you to advocate to be 
where you are. But I would like to know how you connect with 
the Navy. I think a lot of people are unaware of what your 
people are doing on the high seas. They may be aware of what 
you are doing in the Caribbean and intercepting drugs that are 
coming out of Colombia and other countries, but you are playing 
an integral role in the overseas theater. And I would like to 
know how you are sort of matching your assets, which are 
limited, in terms of surface vessels, but what are you doing 
over there that you could tell the committee that shows that we 
have a good substantial investment?
    Admiral Papp. Well, Sir, to give you the down-in-the-weeds 
activities that we are actually involved in, as I mentioned 
during my opening comments, we have a patrol boat squadron over 
there. They [the patrol boats] have been over there nearly 8 
years now, six of our island class patrol boats commanded by 
lieutenants, and they are providing security operations for the 
oil platforms off the coast of Iraq and also doing engagement 
with the other emerging coast guards and navies within the 
Arabian Gulf, working under the Navy component commander and 
Central Command located in Bahrain.
    Mr. Frelinghuysen. Does the Coast Guard have a role in 
training some of those foreign navies?
    Admiral Papp. Absolutely.
    Mr. Frelinghuysen. To take on some of these obligations--
and honestly maybe this is a mischaracterization--some of those 
navies wouldn't be exactly what we would call the U.S. Navy. 
They would be, in terms of their size and capabilities, 
somewhat parallel to yours.
    Admiral Papp. I can guarantee you, sir, that as I travel--
--
    Mr. Frelinghuysen. You are superior, of course.
    Admiral Papp. Yes, sir, absolutely. Almost every navy in 
the world--there is no other navy except for perhaps China, who 
is trying to build a large ocean-going navy, that is a peer 
competitor of our United States Navy. So most of the navies and 
coast guards around the world are actually more like the U.S. 
Coast Guard. They are concerned about piracy, drug smuggling, 
migrant smuggling, fisheries protection, and consequently we 
are in high demand around the world. In fact, we just got an 
inquiry this morning from the Indian Coast Guard that would 
like to open up some exchange with us because they have 
patterned themselves after us, and I have attended numerous 
international forums where I have spoken with the CNOs or heads 
of Coast Guards of other countries.
    Mr. Frelinghuysen. You are involved in joint exercises? Are 
you involved in providing some lead in terms of training?
    Admiral Papp. Yes, sir, we have operations that we do in 
the Pacific where we deploy right now. Given the numbers of 
cutters that we still have, we are able to devote one ship per 
year to the European Command and Africa Command to do training 
with navies. In fact, we have been involved in the Africa 
Partnership Station, training the emerging navies of some of 
the smaller countries in Africa.
    We generally deploy one cutter out to the western Pacific 
to work with, for the United States Navy, but to train some of 
the smaller coast guards and navies and others. And we exchange 
with China, Japan, Russia, South Korea. We also have forums 
that we work in, the North Pacific Coast Guard Forum, for 
example.
    Mr. Frelinghuysen. I am for those exchanges. I hope you are 
not doing any training of the Chinese. They are progressing 
without any support from us.
    Admiral Papp. Yes, sir.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Aderholt. Mrs. Lowey.
    Mrs. Lowey. Thank you, and I join my colleagues in thanking 
you for your service to our country, and congratulations to 
you.
    Admiral Papp. Thank you, Ma'am.

                          SMALL VESSEL THREATS

    Mrs. Lowey. Pleasure to meet you today. You referenced 
small boats before, and in previous testimony before the 
subcommittee, Admiral Allen has stated that the top maritime 
threat we face was from small boats. [And in 2009, the 
Inspector General found that the Nation's ports, waterways 
and--I am coughing and you are drinking water. That is a 
change.]
    In 2009, the Inspector General found that the Nation's 
ports, waterways, and maritime borders remain vulnerable to 
small vessel threats.
    Given that, when terrorists attacked Mumbai, they did so 
using relatively small speedboats. If you could share with us 
the Coast Guard's actions, activities to prevent similar entry 
from occurring in the United States, particularly in New York 
City, and what specific actions has the Coast Guard taken in 
light of that Inspector General report and what more can this 
subcommittee do to help?
    Admiral Papp. Well, Ma'am, I caution to make too many 
connections with the Mumbai attack. I have studied that in 
detail. They [terrorists] used the conveyance of boats, but 
that was driven to a certain extent because of the people 
coming from Pakistan to India and the inability or the more 
difficult problems they would have in terms of transiting a 
land border there. It is interesting to study, and certainly 
something we need to be concerned about, but the type of attack 
that was carried out could be done in numerous ways; it just 
happened to be landed by sea in this particular case.
    Mrs. Lowey. However, didn't the Inspector General make a 
statement, I believe it was 2009, that our ports, waterways, 
maritime borders remain vulnerable to small vessel threats? I 
am glad that after study that you don't think that is the case.
    Admiral Papp. No, I didn't say that wasn't the case. I said 
in the Mumbai attack that we can't draw a direct conclusion 
that that type of attack would occur only by small boat. It 
could, and I agree with the Inspector General's report that in 
fact our waterways are vulnerable. One of the challenges that 
we have is with the roughly 14 million registered recreational 
boaters out there. It is very difficult to monitor all these 
things.
    So we do it to a large extent on the basis of intelligence, 
watching trends and analyzing and following up on any leads 
that we have. One of the best things we can do is simply 
presence on the water. In that regard, we have, besides the 
Maritime Safety and Security Teams, which are there for surge 
efforts--Many of our stations, particularly in New York City, 
have grown over the last 10 years since 9/11. We have gone from 
about 45 people at Station New York to 90 people right now and 
increased commensurately the number of boats there as well for 
our Coast Guard people.
    But also knowing that we can't do it all on our own, our 
Sector New York Commander works through the Area Maritime 
Security Committee, which brings in the city officials, Ray 
Kelly's folks, the New York City police, their maritime units, 
county officials and industry as well, to make sure that 
everybody is aware, everybody is looking, they share 
information, and they follow up on leads and inform each other.
    Then we also have our Coast Guard Auxiliary that is out 
there on a regular basis raising awareness in the ports, 
speaking to recreational boaters out there and encouraging them 
to report things that look out of the ordinary. So we are 
working on many prongs out there to try to increase security. A 
lot of it is just having presence, knowing the area, knowing 
the people who should be there and who looks strange.
    In fact, in the Mumbai attack, there was an Indian Coast 
Guard boat that went through the area, and in the interviews 
afterward, they had questions in their mind but did not follow 
up on those and do a boarding and investigate, which might have 
thwarted the attack. So having people presence on the water, 
people who understand the operation area, who are familiar with 
it, and know who is supposed to be there or not takes us a long 
way toward providing that security and awareness.

                       SECURITY OF FRIENDLY PORTS

    Mrs. Lowey. Thank you very much.
    As events continue to unravel throughout the Middle East, 
there is potential for a serious disruption of our efforts in 
the region. Has any of the unrest to date affected or modified 
your mission in the Persian Gulf? And what would the impact for 
your personnel be if friendly ports such as in Bahrain were 
suddenly with little warning unavailable to Coast Guard 
vessels?
    Admiral Papp. Well, we work for the Navy in Bahrain, and I 
know having been over there twice myself, as the Atlantic Area 
Commander--I went to Bahrain and Kuwait and Iraq twice and 
spoke with the Navy commanders up there--we have contingency 
plans on where boats could go to. Bahrain is actually fairly 
secure even though there has been some noise there recently. We 
have monitored the situation. We were concerned about the 
security. There were a few riots, but that all seems to be 
under control. Force protection efforts were put in place, and 
we are confident that our people are taken care of.
    We do also have Kuwait, where we can move our boats to. In 
fact, our boats oftentimes, because Kuwait is on the way to the 
Iraqi terminals, pull in there for logistics and supply. We 
also have a port security unit in Kuwait, a team of about 110 
people that provide security for the military onloads and 
offloads that occur in the Port of Ash Shuaybah. So I am 
confident that my Atlantic Area Commander, Vice Admiral Parker, 
he has been over there recently as well--We are confident with 
the security considerations and precautions that have been 
taken, and I think we are in good shape for now.

                        RAILROAD BRIDGE PROJECT

    Mrs. Lowey. Thank you. Thank you, Mr. Chairman.
    Mr. Aderholt. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman. I just have a question 
that is of great importance in the Midwest, in Iowa. Your St. 
Louis District is overseeing a railroad bridge project in 
Clinton, Iowa, and I would like to know what you can provide me 
with regard to the way in which they intend to balance the 
needs of water navigation and rail transportation.
    More specifically, I am told that the Union Pacific 
Railroad has a plan to build the bridge structure with its own 
private resources, and they factored in a 300-foot span, maybe 
a little more than that, with the doubling of the current 
clearance. I am also told that the Coast Guard may want the 
bridge span lengthened to as much as 450 feet. My concern is 
that from the UP's standpoint the requirements could get to the 
point where they may just wait until the Federal Government 
pays for it rather than the private sector.
    If you could tell me about your evaluation process--and you 
may have to do this for the record, I understand--and what 
Coast Guard will go through to ensure that the new bridge 
requirements don't unnecessarily tip the expenses to the point 
where the private investment would withdraw. Since the proposed 
project right now is fully funded with private sector money, it 
will generate a lot of jobs right in that area; I would just 
like to know how quickly you can get approval, and maybe 
accelerate the approval process for the project.
    Admiral Papp. Thanks, Mr. Latham, and I am sorry I don't 
have the level of detail and granularity that you might expect 
of me, and we will provide that for the record. But in a 
general response, I think that one of the many strengths of the 
Coast Guard is the fact that we act as an honest broker between 
the needs of the mariner and the needs of commerce, and we try 
to balance those things. Sometimes it is difficult, sometimes 
you are not going to please both parties. We do the best we 
can. Ultimately we are concerned about the safety of navigation 
on the waterway, but we fully comprehend and understand that 
commerce has to flow through there as well and those are 
oftentimes understandably competing priorities.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Latham. Okay. Well, it is obviously very, very 
important. And I just, you know, make sure that you keep your 
balance and that you are not just an ancient mariner, you are a 
gold ancient mariner.
    Thank you. That is all I have.
    Mr. Aderholt. Mr. Crenshaw.

                        INTERAGENCY COOPERATION

    Mr. Crenshaw. Thank you, Mr. Chairman. You talked a little 
bit about efficiency, being more effective, and that is kind of 
the buzz word around this place. Everybody doing more with 
less. And it is encouraging to hear that. One of the things 
that I know a little bit about in my district in northeast 
Florida, Jacksonville, there is a seaport, and the Coast Guard 
works with the border and customs folks. They call it JMAST. I 
don't know exactly what that stands for, but basically they are 
working together in a very efficient way. It seems like it 
ought to be a model of how two agencies under the same 
department can work together in an efficiency and effective 
way.
    And I am told that the one thing they need, the next step 
so to speak, is to be collocated together. They are kind of 
spread out. They are still working together as best they can. 
But if they were collocated then it would be even more 
efficient.
    And so I wanted to ask you if you are aware of that 
situation, what are you doing to assist them. I don't know, 
that was something I was going to ask the Secretary when she 
was here, I didn't have a chance, but somehow talking to her 
about how to coordinate this move and make it even more 
effective.
    And then the second question is just that kind of 
interagency cooperation brings to mind other areas that maybe--
I don't know if aviation, somewhere, that you might work 
together with border folks. So if you could talk a little bit 
about that. Number one, how is that going, that JMAST program? 
Is that moving ahead? Are they finding a place? And number two, 
talk about how that might be a model for other areas of 
cooperation.
    Admiral Papp. Well, sir, that falls in line with exactly 
what I have been talking about: first of all, identifying those 
things that the Coast Guard can do, must do, do them well, and 
then identify the shortfalls.
    Sometimes resources for those shortfalls are not going to 
be found within the Coast Guard appropriation, and sometimes 
the citizens of this country have already paid for resources in 
other ways that perhaps we can leverage. One of my four 
principles when I became Commandant was strengthening our 
partnerships, and part of that is looking out across the broad 
expanse of the Federal Government and determining what other 
partners could we work with to fulfill our needs and vice 
versa.
    The CBP [U.S. Customs and Border Protection] and border 
protection is one of those great partners that is within our 
own department. And in fact it is ironic that you asked the 
question because Commissioner Bersin and I had an hour and 10-
minute breakfast yesterday comparing notes, seeing where we can 
work more closely. One of the things I have been tasked to do 
is come up with interagency operation centers (IOCs), which 
would bring various Federal agencies together, local and State 
agencies together, where we can share information in one 
operation center to create a seamless response leveraging all 
those various agencies to provide the security of our ports.
    Jacksonville is one of the great examples of where we are 
doing that. The challenge, as you have identified, is where do 
you come up with the resources to consolidate and bring them 
and collocate themselves together.
    We are facing a similar problem in the Coast Guard. We have 
restructured our shore commands, our legacy group offices and 
marine safety offices. The promise 7 years ago was that we were 
going to collocate them together for greater efficiencies. The 
challenge, of course, is coming up with the appropriations to 
build new buildings. And I think in the current environment, we 
are not going to see too many new buildings built. We will 
continue to identify those needs, but I think the tough part is 
bringing them all together.
    Mr. Crenshaw. Whose responsibility is that? Is that 
something that Secretary Napolitano has to kind of bless or is 
that GSA [General Services Administration] ? If that is a 
better way to run the railroad and we will save money in the 
long run, is there something that we can help you do to say 
look, this is working. Let's move ahead. Because if everybody 
is spread out you are not going to have the efficiencies that 
it sounds like you understand that you could have when they are 
together.
    Admiral Papp. Absolutely. I would say yes to all. It has to 
be a shared responsibility, and one that is not being mentioned 
here is the U.S. Navy as well. What is the bulk of our security 
work down there in Jacksonville? It is the ships coming into 
the naval station at Mayport and the ships and submarines going 
into Kings Bay. I have been down there on the water and watched 
those escorts. It is a resource sink properly done of Coast 
Guard resources, both on the water and in the operations 
center, and I have been working with Admiral Roughead, and when 
I was Atlantic Area Commander with Admiral Harvey, who is Fleet 
Forces Command, to come up with a way to perhaps have the Navy 
provide a building where we can come together.
    Mr. Crenshaw. Has somebody talked to the Navy about that?
    Admiral Papp. I am, sir, and it continues. Everybody is 
facing the same challenges in terms of tightening the belt. But 
I think this is what we have to be doing in order to provide, 
first of all, the proper service to people and then also to 
pool our resources to be able to do it in a more effective 
manner. And as we identify those things, I am more than happy 
to bring them to the subcommittee and ask you for your help, 
sir, in pushing them forward.
    Mr. Crenshaw. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Aderholt. Mr. Dent.

            ARCTIC: POLAR ICEBREAKERS AND OTHER CAPABILITIES

    Mr. Dent. Thank you, Mr. Chairman. Good afternoon, 
Commandant. First I wanted to thank you and the U.S. Coast 
Guard for all the great work you did at the Deepwater Horizon 
in the Gulf. I visited there last August and I was very 
impressed by your efforts. It was extraordinary.
    Do you think if there would be an oil spill in the Arctic 
do we have the infrastructure in place to respond quickly and 
effectively?
    Admiral Papp. No, sir.
    Mr. Dent. That was--wow. So I guess the next question is, 
heaven forbid, if there were a cruise ship or some other ship 
in distress in danger up in the Arctic waters, could you carry 
out those types of lifesaving responsibilities?
    Admiral Papp. No, sir. But I will elaborate on this if you 
don't mind. I think most of our focus over the last few years 
has been on polar icebreakers, and we do need to have a 
thoughtful discussion on where we are going with polar 
icebreakers. But polar icebreakers is just a small part of the 
capabilities that we need in the Arctic to carry out not just 
Coast Guard missions but missions that are important to the 
United States as a whole. We are an Arctic nation, but it is 
tough to walk up to the average person on the street and 
convince them that we are. But we have a lot of needs up there.
    I went up there in August and spent a little over a week 
traveling around Alaska. It had been 35 years since I had been 
up there. I did my first tour in the Coast Guard in Alaska, I 
spent time in the Arctic and the Bering Sea, and I wanted to go 
back there and reacquaint myself. And I went back almost 35 
years to the day when I had stood on the shore in Kotzebue, 
Alaska, in July, and saw ice almost all the way up to the 
shores. I flew into Kotzebue this time, and even from the 
altitude in the jet I was in, I could not see ice. So there is 
a lot of open water, and open water means Coast Guard 
responsibilities, first of all, search and rescue, fisheries, 
other things that will migrate into that area as we go forward.
    Right now I have got zero resources to conduct those 
missions up there. It is a zero sum game, and if I am needed to 
carry out Coast Guard missions up there, they have to come from 
some other place. So what we are doing right now is we are 
doing a high latitude study. I think that--that has been, in my 
estimation--In looking at it as it stands right now, its 
primary focus is on icebreakers. I think it should be on the 
broad expanse of Coast Guard duties that would be required in 
the Arctic and what do we need to conduct that.
    A ``for instance'' is, right off the top of my head, going 
up there this summer, we need at a minimum a seasonal air 
station up there that we can fly helicopters out of and 
helicopters and crews to man them to be able to start to 
conduct our duties. As drilling begins up there offshore, of 
course, the Coast Guard will approve response plans for those 
facilities. But in terms of Coast Guard ability to respond, as 
I said in my first question, we have got none right now. We 
need to be about the business of doing that, because that 
business will come to the Alaskan waters, and it is my job to 
identify to all of you what we need to do that. And we are 
working very hard on that right now.

                   MARITIME SAFETY AND SECURITY TEAMS

    Mr. Dent. Admiral, last year you requested the reduction, I 
think, of five maritime safety and security teams. And I 
understand that the Coast Guard is proceeding with the closure 
of the MSST up in Anchorage. I guess that leaves 11 other teams 
throughout the Nation.
    What was the rationale for the closure of that team up in 
Anchorage? And is that going to impact the other MSSTs?
    Admiral Papp. Let me start off by saying how much I deeply 
appreciate--I saw the Senate mark and the House mark last year 
that restored those teams back to the budget. I know the budget 
hasn't been approved but the continuing resolution has allowed 
us to keep those teams going, and I am deeply appreciative of 
that. I need each and every one of our Coast Guard people to 
carry out the duties that we do.
    Now on the Anchorage MSST, I support the decommissioning of 
that unit. The truth of the matter is, because of the 
conditions up in Alaska, they just aren't able to operate up 
there year-round and provide the type of return on investment 
that we would be looking for. They, most of the time, deploy 
outside of Alaska, and it is very expensive to deploy them when 
they go outside of Alaska. So we don't see an operational need 
for them up there. And if there is a time when we need security 
operations, we can deploy one of our other MSSTs up there.
    What the proposal does besides decommissioning, it does 
allow us to retain some of those people from the MSST, and we 
are reallocating them into law enforcement detachments, which 
we have a high demand signal for right now but a shortfall in 
terms of our ability to provide them. So it is a win-win 
solution for the Coast Guard in my estimation and perhaps a 
short-term loss in terms of numbers of Coast Guard people in 
Alaska. But I think we will be able to cover Alaska adequately, 
and it is going to provide me some resources for higher 
priority missions.
    Mr. Dent. Thank you, Admiral. I yield back.
    Mr. Aderholt. Judge Carter.

                          RIO GRANDE PRESENCE

    Mr. Carter. Thank you, Mr. Chairman. Admiral, welcome. 
Sorry I was late. I had another hearing to go to.
    I am going to start off with a question I got last night on 
the phone from Texas. My Senator called me on behalf of the 
Governor and asked me to ask the Coast Guard to put ships on 
Falcon and Amistad Lake, put some kind of armed boat because it 
has now become the international highway of drug trafficking. 
Because of the killing on the lake we had up there a while 
back, people are off the lake. And every night it seems like 
there is just a parade of boats coming across the lakes and it 
has become, quite honestly, a major drug smuggling corridor.
    Would it be possible for that? And would you have a type 
boat or ship that you could put on the lakes to patrol those 
lakes if we could find you the resources?
    Admiral Papp. Mr. Carter, I agree with you. And what we 
have done is we have actually done some pulse operations. We 
have trailered boats up there and put them out, particularly 
after the unfortunate killing that occurred up there. We 
immediately surged Customs and Border Protection. The Border 
Patrol has put boats out there. None of us have the dedicated 
resources for Falcon Lake right now, but we can pull them from 
other places for the surge operations that we do. The return on 
investment has been very small when we have been up there 
because, as you know, once we put a presence up there, they 
will go into hiding. As soon as we leave, they will resume 
their activities. So perhaps some level of persistent presence 
is required on Falcon Lake.
    We have to look at that in terms of balancing resources 
with the Border Patrol, us, and perhaps looking at State and 
locals as well. But I guarantee you that our Eighth District 
Commander, Rear Admiral Landry, has that on her radar scope 
front and center and we will do our best.
    Mr. Carter. My Governor would like actually a presence on 
the Rio Grande from its mouth as far up as you can get. I would 
recommend an air boat. In some places, it is a little shallow 
on the river. Because I have the highest respect for the Coast 
Guard and their ability to accomplish their mission, I think 
you would be a great resource on the southern border if we 
could do some planning to figure out a way to get you there. 
That is kind of an off-the-wall question. But when the Governor 
calls, you ask the question.
    Admiral Papp. Sir.
    Mr. Carter. You know, talking about Alaska, I happen to 
have had the great joy of going up and being with the Coast 
Guard for an extended length of time two summers ago, and I can 
personally testify that you are operating with some real 
antiques up there. Some of them might even be called museum 
pieces, but those Coast Guardsmen are out there doing their job 
every day on those things. And the President's budget proposes 
a 22 percent reduction in the Coast Guard's Deepwater program. 
It is my understanding this pushes back the completion of the 
eight National Security Cutters to 18. And does this also cut 
the in effect funding for the new Offshore Patrol Cutter? If 
so, how much does this put cash back in the OP acquisition 
timeline? And more importantly, how many of these resources 
were scheduled for that really fierce environment that you have 
in Alaska? And you really are short of some pretty major 
equipment needs up there.

                       NATIONAL SECURITY CUTTERS

    Admiral Papp. Yes, sir. Absolutely. This was nowhere more 
evident than a trip I made just a couple of weeks ago out to 
San Francisco where at the same pier we had our new National 
Security Cutter, the BERTHOLF, and then two of our 40-plus-
year-old High Endurance Cutters that were there. My heart aches 
for the Coast Guard people who are trying to keep those 40-
year-old ships going. They are struggling working on engines 
that you can't even get spare parts for anymore. They are 
keeping systems working all because of their dedication and 
patriotism, and they are getting out there and they are going 
up into dangerous environments like the Bering Sea and 
conducting some very challenging missions up there for our 
country, protecting our fisheries, rescuing fishermen and other 
activities. So the sooner we get the National Security Cutter 
out there, the better.
    The second National Security Cutter, the Waesche, was 
deployed off San Francisco. I got up at first light one 
morning, flew out by helicopter and spent the entire day 
basically from sunrise to sunset seeing that ship being put 
through its paces. There are some people that would make the 
case that it is an extravagant ship that the Coast Guard 
doesn't need, and I will debate those people until the end of 
the day. It provides us with adequate improvements in terms of 
capabilities, sensors, and systems, allowing us to do our job 
better and in a safer manner and in a way that respects our 
young patriots who step forward to serve their country by 
putting them into something with a little bit more comfort to 
live in rather than the 30-person, dark, dank berthing areas 
that you find on the 40-year-old ships that were built when we 
used to draft people instead of looking for volunteers to 
patriotically step forward. So we need to get those ships built 
as soon as possible.
    Now to the core of your question (``Why aren't we building 
them faster?''), I think if I will paraphrase, is we had 
problems with this acquisition project 4 years ago, and it has 
taken us a long time to straighten out our acquisition 
practices and come up with a predictable, fair, fixed price for 
the ship going forward. The delay in coming up with that fixed 
price set us behind, and I am now under a new constraint of 
full pricing in any given year for follow-on ships. So in other 
words, I have to get the long lead material costs, the 
production costs, and the post-production costs all in one 
budget, which takes up a rather significant chunk of a 1-year 
acquisition funding.
    So when I looked at the balance across the next couple of 
years, [and saw that] we needed to come up with the funding to 
complete No. 5, which is in the 2012 budget, I could not fit 
the full price for National Security Cutter No. 6. Even though 
I would like to move forward on that, I could not fit it within 
our acquisition budget without starving out a lot of other very 
valuable projects, like our patrol boat replacement, our 
maritime patrol aircraft, our response boats that go out to the 
search and rescue stations.
    So I am confronted with a lot of difficult choices and 
decisions. I made the best reasoned choices in terms of our 
acquisition projects for this given year based upon the rules 
that I have to operate under.

                     ARCTIC: RESPONSE TO INCIDENTS

    Mr. Carter. Well I, for one, would like to see this 
committee do everything they can. When I was up there, they 
pointed out that the famous Northwest Passage, which people 
spent a couple of hundred years looking for, is now open 
basically and that there are cruise ships that are actually 
advertising being the first to go through the Northwest 
Passage. And the Coast Guard explained to me that once they 
pass the top of Alaska and start around on the Canadian side 
there is basically nobody, neither the Canadians nor our Coast 
Guard, that have the ability to get to them with the resources 
they would need should they have a disaster strike on that 
cruise ship. Literally, our helicopters at a point can't get 
there before they run out of fuel. So we are in the Arctic, and 
we need to deal with the resources.
    Admiral Papp. Yes, sir. I met 2 weeks ago with Commissioner 
Gregoire, who is the Commissioner of the Canadian Coast Guard. 
We were discussing our mutual issues in the Arctic. Canada had 
a 600-passenger cruise ship and an oil tanker both run aground 
in separate incidents but very close in terms of timing last 
summer. Commissioner Gregoire and the Canadian Coast Guard were 
roundly criticized because they were only able to respond 
within a matter of days. I think in one case 2 weeks. In our 
case, we would not be able to respond, period.
    Mr. Carter. Thank you, Admiral.

                        UNMANNED AERIAL VEHICLES

    Mr. Aderholt. Thank you, Admiral. What we are going to do 
is, I think we have votes that are coming up pretty soon. So we 
will do a quick second round of questioning.
    Let me shift to the unmanned aerial systems, follow up on 
that. Your fiscal year 2012 budget request nor your 1-page 5-
year capital investment plan includes the funding for a cutter-
based Unmanned Aerial System, or UAS. Yet the Coast Guard has 
continually stated that the NSC will not be fully mission 
capable without the UAS.
    Considering you have been testing cutter-based UAS for 
years with the Navy, why doesn't your budget include funding 
for the unmanned aerial systems?
    Admiral Papp. You are absolutely right that to get to full 
capability of the system, you do need a tactical ship-born 
unmanned system. But there are other components to the system 
as well. Maritime patrol aviation, which we are investing in; 
your small boats that you run out of the ship, which we are 
investing in; and manned helicopters, which we continue to 
invest in, are carried by those ships as well. So when you look 
at the entire system, the only thing that we are not asking 
funding for right now is the Unmanned Aerial Vehicle [UAV]. And 
that is primarily because it is a cost avoidance for us right 
now. There is just so much we can fit into the budget. And when 
I look across the government, the Navy is experimenting 
primarily right now with Fire Scout as a UAV. And I think it is 
a prudent measure for us to watch the progress that the Navy 
makes when they make a determination on the system that they 
are going to use. Then we will have identified one that is 
interoperable with us, one that the Navy has invested in that 
we didn't have to invest in, and I think for the Coast Guard 
that is a good route for us to take and a proper route for 
someone who is enforcing fiscal stewardship as well for our 
service.
    Mr. Aderholt. So, right now this is basically just a cost 
avoidance issue. So you don't have a certain timeline?
    Admiral Papp. And because the Navy, in their 
experimentation, has not finalized and has not firmly decided 
that Fire Scout is the system that they are going to go with. 
So I think it is prudent for us to leverage off the Navy's 
expertise in this, watch where they are going. And there are 
all kinds of things that will save us costs because the Navy 
will set up training systems for this. The Navy will have 
logistics and supply lines set up for whatever they choose. And 
the Coast Guard will avoid all those costs and be able to take 
advantage of the Navy's work and save us a little bit of money.
    Mr. Aderholt. What is the impact on the NSC's interdiction 
effectiveness without the Unmanned Aerial System?
    Admiral Papp. Sir, I am not sure I can fully quantify that 
because there is so much that goes into interdiction of drugs, 
ranging all the way down to basic on-the-ground intelligence. 
So you have to look at the entire picture. We have invested 
heavily in our intelligence programs. We are working on 
bilateral and multilateral relationships with the South and 
Central American countries. We are leveraging Department of 
Defense assets that go out and gather signals intelligence and 
human intelligence. And then we still have our maritime patrol 
aircraft. We put helicopters that deploy on our ships.
    So if you are looking at the aggregate of all those 
systems, I would say, maybe without a UAV, we are only 
performing at 90 percent. I am reluctant to say an exact number 
on that. What I will say is we are not performing at 100 
percent. Would I like to get a UAV? Of course I would. It makes 
us all that much better. But I think where we are making our 
investments is the wise area to go right now. And then, as I 
said, we will leverage off the Navy and see what they come up 
with.

                           DRUG INTERDICTION

    Mr. Aderholt. As the Mexican drug war rages on I don't have 
to tell you that the Coast Guard's effort to interdict drugs 
being smuggled from the source and transit zones is absolutely 
vital to our security. To use a football analogy, I see the 
Border Patrol as defending the goal line and the Coast Guard 
and other agency playing offense deep in enemy territory. 
However, it appears that some aspects of your fiscal year 2012 
budget will actually diminish your current drug interdiction 
capabilities. Your fiscal year 2012 budget proposes to both 
decommission another High Endurance Cutter and extension of the 
delivery schedule of the replacement NSCs. Won't the 
combination of these decisions decrease the Coast Guard's drug 
interdiction capabilities in fiscal year 2012 and for the next 
few years?
    Admiral Papp. Sir, I would say it could decrease. What I am 
going to do is work very hard to make sure that it doesn't 
decrease. Once again, going back to what I talked about, my 
experiences as the Atlantic Area Commander, those decisions are 
being made on a day-to-day basis, and we will continue to give 
a high priority to drug interdiction. And right now, as 
projected, we are going to meet all the demand signals that 
JIATF [Joint Interagency Task Force] South is asking for in 
terms of Coast Guard ships and aircraft to provide patrol 
capabilities down there.
    We will also continue to leverage the Navy to the extent 
that we can, to get Navy ships down there with Coast Guard law 
enforcement detachments. And I don't look at this just from my 
role as Commandant of the Coast Guard. One of my other 
collateral duties is I am the Chairman of The Interdiction 
Committee [TIC]. I report directly to the Chairman of the 
Office of National Drug Control Policy. I bring the interagency 
together to work on these issues. And in fact we had our recent 
TIC meeting where we brought in General Fraser from SOUTHCOM. 
We are looking at various means of making sure that we keep our 
assets up down there and continue to work with the Central 
American countries in terms of bilateral agreements and working 
with their coast guards and navies. I have made a trip down to 
Mexico City to talk to Admiral Saynez of the Mexican Navy to 
continue our cooperation there.
    But you are absolutely right, the Coast Guard and our 
partner agencies need to interdict those large 5- and 6-ton 
loads as they leave Colombia and go up the coast of Central 
America so they don't reach Mexico and then get broken down 
into those small loads that the trafficking organizations are 
fighting over and bringing across our southern border. So to 
the extent that we can pull out the large loads, it helps our 
Border Patrol colleagues in fighting the more intense war that 
is going on on the land border.

                         HIGH ENDURANCE CUTTERS

    Mr. Aderholt. Just briefly before I go to Mr. Price, what 
is the current status of the Coast Guard's High Endurance 
Cutter Fleet?
    Admiral Papp. I was going to use a sailor's term there. But 
I will just say it is poor, sir. In fact, probably if I got to 
the second and third order responses of the question that you 
gave, the fact of the matter that we are decommissioning 
another one of them in this budget does not break my heart 
because right at this point, across the fleet of the 12 High 
Endurance Cutters we have got, we have got about a 75-percent 
availability, which means we are basically losing four ship-
years just because of unplanned maintenance. So we are only 
getting about eight to nine ships worth of time on station out 
there as it is. So the quicker that we decommission these, 
devote our resources to getting the National Security Cutters, 
which will be more reliable out there--I need reliable ships on 
station.
    We could keep the High Endurance Cutters going, but they 
are just unreliable at this point. I had one that I had to pull 
off station. They have four engines. They have two gas turbines 
and they have two diesel engines. One ship was down there on 
one engine left, trying to maintain station off the coast of 
Colombia, and two out of the three electrical generators were 
broken down. They had an emergency generator left. In order to 
launch the boat, they had to shut off the air conditioning and 
the refrigerators in the ship just so they could launch the 
boat. That is unacceptable. We have got to get those ships 
replaced soon.
    Mr. Aderholt. Mr. Price.

                 ARCTIC: POLAR ICEBREAKERS, BUDGET FOR

    Mr. Price. Thank you, Mr. Chairman. I want to turn, 
Admiral, to marine safety and environmental response. But, 
before I do, I want to quickly revisit the matter raised by a 
number of members today; that is our Arctic capability. I was 
listening carefully to what you said, and I appreciate fully 
your response to the effect that this is not just a matter of 
icebreaker capability, that the implications are much broader 
than that in terms of what kind of missions the Coast Guard 
might be required to perform. But I wanted to go one step 
further in terms of specificity with respect to this budget. I 
am glad, I think the Subcommittee is glad, to see the transfer 
of that $39 million and 180 FTEs from the National Science 
Foundation back into an entirely DHS-funded program. We have 
been encouraging that for a long time.
    However, the budget appears to fund reduced icebreaking 
responsibilities. It assumes the decommissioning of the Polar 
Sea in 2011, leaving us with only two polar icebreakers in the 
future. The second large icebreaker that can be used in 
Antarctica, the Polar Star, is being refurbished and not 
expected to return to service until 2013. Even with the 
refurbishment, the Polar Star will only last for at most 10 
more years. That means the future will have only one heavy 
icebreaker, the Polar Star, when it is back in service and the 
more limited Healy which can really only operate in the Arctic.
    Now other countries have much larger icebreaking fleets, 25 
for Russia, as I understand it, 18 for Canada. Ours is quite 
small. I am not sure that is the appropriate point of 
comparison though. But I do need some help in matching up the 
kind of minimal icebreaker capabilities that I think we are 
hearing you say you need with this budget request. And you may 
want to elaborate on this for the record. This is a very 
detailed question. And also elaborate to the extent you can on 
what the future minimal capabilities are likely to look like, 
assuming that the present projections are going forward.
    Admiral Papp. Yes, sir. Well, just as a point of 
reference--and I have studied this extensively. The United 
States put ships through the Northwest Passage back in 1957. 
They were three Coast Guard cutters, ice-strengthened vessels 
that circumnavigated the North American continent. They had 
been up there working off Alaska. People say, ``Well, why did 
they go through the Northwest Passage?'' It is because our 
country had a national imperative at the time. Each summer, the 
Navy formed up a squadron of icebreakers and Coast Guard 
cutters to resupply the DEW [Distant Early Warning] Line. We 
had a reason to be up there at that time. And Coast Guard 
cutters and the Navy--and at the time the Nation owned six 
polar icebreakers, four that had been transferred to the Coast 
Guard from the Navy and the Navy was still operating two. 
Ultimately, the remaining two were transferred to the Coast 
Guard. But they were all World War II vintage. And over time 
and because of Coast Guard budgets, we ended up decommissioning 
them until we were able to build the Polar Sea and the Polar 
Star in the early 1970s. Now the Polar Sea and the Polar Star 
are more than 30 years old and are either due for replacement 
or very, very significant renovation.
    So I am pleased, happy, delighted that we are getting the 
money transferred back into the Coast Guard budget to take care 
of these ships because there is another aspect to this as well. 
We are losing our competencies. Because the National Science 
Foundation has not been transferring the funding to use Coast 
Guard icebreakers, we are starting to lose our expertise. We 
are running out of people that have been involved up in the 
Arctic doing icebreaking and in the Antarctic, and that is a 
perishable skill. Fortunately, we have still got a few people 
around that can do it.
    But what I am confronted with is balancing the resources 
that we have. And with the $39 million, it is not enough--and 
in fact we have been directed to decommission Polar Sea. Given 
the amount of money that I have, I see that as a wise decision 
at this point even though there will be a gap before we can 
bring Polar Star back in service in 2013. But I cannot see 
pouring more money to repair Polar Sea right now to maybe get a 
couple of years out of that ship. I would rather divert the 
funds to the reactivation of Polar Star, which I know we can 
get at least 10 years and, between you and me, I think probably 
a couple of years beyond that, which will give us time to 
complete this high latitude study and confirm what the Nation 
needs.
    Ultimately, the answer might be that the Nation wants to 
lease icebreakers. I don't know. If that decision is made, I 
will say, ``Fine,'' and we don't have to train Coast Guard 
people for it anymore. I think the Coast Guard can do it 
better. But then again, I am a Coast Guardsman and that is sort 
of our attitude. So we will do the best we can with the 
resources that we have been given. And in my estimation, my 
best judgment, our best course of action, Healy is in good 
shape. We can keep her running, and we have got sufficient 
budget authority. We will take the crew and the operating funds 
from Polar Sea and make sure we do a good reactivation of Polar 
Star to give this Nation a sound heavy icebreaker for at least 
another decade or so while we are making those decisions on the 
way ahead.
    Mr. Price. Thank you. We really are short on time now, so 
let me ask the question very quickly. I am referring back to 
your State of the Coast Guard speech. You noted that, ``We need 
to ensure we have a sufficient number of inspectors, 
investigators, and prevention officers, and that they are 
keeping pace with the maritime industry.'' Now your budget 
request includes $22.2 million to enhance maritime safety and 
environmental response activity. That includes $192 new 
personnel, as I understand. Now this appears to be a well-based 
request. However, after action reports from the Deepwater 
Horizon spill are still ongoing. Can you specify again--and you 
might want to elaborate on this for the record--what concrete 
needs were identified after Deepwater Horizon? How do the 192 
new personnel and the $22.2 million increase address these 
gaps? And with after-action reports still being finalized, do 
you believe there are other areas of concern that could affect 
the Coast Guard operations and could shape future budget 
requests?

                      DEEPWATER HORIZON TAKEAWAYS

    Admiral Papp. Yes, sir. I think the biggest take-away for 
me from Deepwater Horizon was what I knew already, was that we 
lacked the capacity to put on a sustained response to a 
disaster like this. And if I can elaborate, if there is a 
hurricane, generally we ramp up for the hurricane. We deploy 
Coast Guard forces to respond to it.
    A hurricane passes over and it is over in relatively short 
order, and we do the necessary repairs and then we can flow 
Coast Guard people back to their regular jobs. We sent 3,000 
people down to the Gulf of Mexico for Deepwater Horizon. Those 
aren't 3,000 people that we held in garrison to sit around and 
wait for disasters to happen. These are people that have 
regular jobs in the Coast Guard. So there were many jobs that 
were not done during that 6- to 8-month period that we had all 
those people deployed. We got set back on a number of 
initiatives that we would like to be working on because the 
Nation had a higher priority at the time, and we flowed Coast 
Guard forces down there.
    So one of the take-aways--and in this budget what we are 
asking for is something called an Incident Management and 
Assist Team. And this is going to be 87 people. It is part of 
those 192 people that you are talking about. That will form the 
nucleus of a group that would deploy and do the initial setup. 
In other words, these will be our people in garrison. They will 
have jobs to do. But when there is a hurricane or an oil spill 
or some other natural disaster, these are the people who we 
will immediately deploy down there, put them in place to form 
the nucleus of those incident command posts that we set up in 
response to the disaster.
    So this is something we desperately need. We may need more. 
And if we do, I will come back to you and let you know. But I 
think this is a good start in terms of responding to incidents. 
Out of that 192, the remaining 105 is part of a marine safety 
performance plan that we have already identified. We are into, 
I think, our fifth year of this. Because of the growth of the 
marine industry, the increase in regulations, and the 
acknowledged shortfalls we have had in our marine safety 
personnel, we have had a 5-year plan to restore us up to the 
point where we can adequately respond to the concerns of the 
marine industry. So 105 of those 92 go toward the continuation 
of the marine safety plan, and then 87 of those go to this 
incident management assist team that I talked about earlier.
    Mr. Price. Thank you, Mr. Chairman. I know we are out of 
time. As to the future projected plans and the remaining after-
action reports, I would appreciate your elaborating on that for 
the record.
    Admiral Papp. Yes, sir.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Aderholt. Well, thank you, Admiral, for being here 
today. Just to follow up, you had mentioned the revisions to 
the APBs. And I just wanted to follow up on the APBs. If you 
could submit these to the Committee, it would be very helpful.
    Admiral Papp. Yes, sir. We would be glad to.
    Mr. Aderholt. Thank you again for your presence here before 
the Subcommittee, and we look forward to working with you on 
the fiscal year 2012 budget.
    Admiral Papp. Me, too. Thank you, Mr. Chairman.
    Mr. Aderholt. The Subcommittee is adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               I N D E X

                              ----------                              
                                                                   Page
U.S. Department of Homeland Security.............................     1
  Advanced Imaging Technology:
    Model Types..................................................    40
    Passenger Education..........................................    40
  Aviation Security Fee Increase:
    Feasibility in FY2012........................................    32
    Justification for FY2012.....................................    35
Biography: Secretary Napolitano..................................    30
  Border Security:
    National Guard Assistance....................................    42
Chemical Facility Security.......................................    39
  Cybersecurity:
    Agreement with Department of Defense.........................    37
    Authority over Private Sector................................    37
Disaster Relief Fund.............................................31, 34
Government Shutdown: Potential Impact on DHS.....................    33
  H.R. 1:
    Impact on DHS Funding........................................    34
  Opening Statement:
    Chairman Aderholt............................................     1
    Chairman Rogers..............................................    14
    Ranking Member Price.........................................     8
    Ranking Member Dicks.........................................    15
    Secretary Napolitano.........................................    15
  Transportation Security Administration:
    Employee Turnover............................................    41
    Personnel Cap................................................    36
  Urban Areas Security Initiative:
    Funding......................................................    38
U.S. Customs and Border Protection (CBP).........................   163
  Air Cargo Security:
    100 Percent Screening........................................   194
    Efforts to Strengthen........................................   187
Biography: Bersin, Alan..........................................   182
  Border Security:
    Border Search Authority......................................   202
    Civil Air Patrol, Use of.....................................   193
    Illegal Immigration..........................................   185
    SBInet.......................................................   194
    Stonegarden Grants...........................................   210
    United States-Mexico Cooperation.............................   184
    Weapons Smuggling............................................   198
  Cargo Security:
    CBP and TSA Responsibilities.................................   204
    Container Security Initiative................................   206
Customs Fee Adjustment...........................................   205
  International Trade and Importation:
    Border Inspections...........................................   204
    Illegal Imports..............................................   201
  Opening Statement:
    Chairman Aderholt............................................   163
    Commissioner Bersin..........................................   173
    Ranking Member Price.........................................   169
  Ports of Entry:
    Customs and Border Protection Officers.......................   198
    Need for Improved Security...................................   201
U.S. Coast Guard (USCG)..........................................   277
Acquisition Program..............................................   303
  Arctic:
    Polar Icebreakers and Other Capabilities.....................   317
    Polar Icebreakers, Budget for................................   324
    Response to Incidents........................................   321
Biography: Papp, Robert..........................................   301
Coast Guard Missions.............................................   305
Deepwater Horizon Takeaways......................................   326
Drug Interdiction................................................   323
Fleet Max Study..................................................   302
Friendly Ports, Security of......................................   311
High Endurance Cutters...........................................   324
Interagency Cooperation..........................................   316
Maritime Safety and Security Teams...............................   319
National Security Cutters........................................   320
  Opening Statement:
    Admiral Papp.................................................   288
    Chairman Aderholt............................................   277
    Ranking Member Price.........................................   283
Overseas Activities..............................................   308
Railroad Bridge Project..........................................   311
Rio Grande Presence..............................................   319
Security-Related Missions: Cutbacks..............................   302
Small Vessel Threats.............................................   310
Unmanned Aerial Vehicles.........................................   322

</pre></body></html>
